<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Udall, Begich, Murkowski, Cochran, 
Blunt, and Johanns.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF BOB PERCIASEPE, ACTING ADMINISTRATOR AND 
            DEPUTY ADMINISTRATOR


                 OPENING STATEMENT OF SENATOR JACK REED


    Senator Reed. I would like to call the hearing to order and 
welcome everyone. Good morning. On behalf of the Interior, 
Environment, and Related Agencies Appropriations Subcommittee, 
welcome.
    This is our first budget hearing this year. It will be a 
hearing on the fiscal year 2014 budget request for the 
Environmental Protection Agency (EPA). I am very pleased to 
welcome Acting Administrator Bob Perciasepe to testify before 
the subcommittee. Mr. Administrator, thank you. And also, we 
are grateful that Acting Chief Financial Officer Maryann 
Froehlich is also with you. Thank you, Maryann.
    Let me make a few acknowledgments before we begin. First, I 
would like to thank and recognize my ranking member, Senator 
Murkowski, not only for joining us this morning, but for her 
great efforts over the last several years to work 
collaboratively and effectively to craft these budgets, which 
are very challenging.
    I simply could not have a better colleague and partner in 
these endeavors than Senator Murkowski. And I want to 
personally thank her for these efforts, and also for her very 
talented staff. Thank you, Senator.
    I would also like to acknowledge that we have added four 
new members to the subcommittee this Congress: Senators Udall, 
Merkley, Begich, and Johanns. I welcome each of these Senators 
and look forward to their contributions.
    At some point this morning, the Chairwoman, Chairwoman 
Mikulski might arrive. When she does, I will at that point, at 
the appropriate moment, suspend and give her an opportunity to 
make any statement that she might want.
    But we are very gratified to have Senator Mikulski as the 
chairwoman of the full committee. She served many years on this 
subcommittee, and she has a particular appreciation and regard 
for the efforts of the EPA. So we are multiply fortunate in 
that regard.
    Now, turning to the budget, the President's fiscal year 
2014 budget request includes $8.15 billion for EPA. That amount 
is $173 million or 2 percent less than the fiscal year 2013 
enacted level of $8.32 billion.
    Unfortunately, there is not a lot of good news to discuss 
in this reduced budget request, but there are a few items that 
I wanted to highlight as we begin this conversation, including 
a 6-percent increase to EPA's operating programs above the 
fiscal year 2013 level.
    Within that amount, I am pleased that the administration 
proposes $2 million for a geographic program to restore 
southern New England watersheds. I worked closely with the EPA 
for several years on this effort. It is extremely important, 
not just to Narragansett Bay, but to the surrounding waters in 
Massachusetts and Connecticut. So I am grateful that the EPA 
leadership has moved forward on this initiative.
    The budget request also provides $73 million for the 
Chesapeake Bay Program and flat funds the National Estuary 
Program at $27 million. It includes a new $60 million E-
Enterprise Initiative to improve electronic data collection and 
sharing to ease the reporting burdens on regulated entities, 
and we may get into that in the questioning.
    And finally, it is worth noting that the request also 
includes a nearly 5-percent increase in grants that help States 
and tribes run their environmental permitting and monitoring 
programs, including increases in safe air and water pollution 
control grants.
    Of course, despite these good investments, I am 
disappointed with the overall budget level. This is the fourth 
year in a row that EPA's budget request has contracted, which 
makes it difficult for this subcommittee to hold the line on 
the EPA budget when our final bill is enacted.
    And I am particularly concerned about the specific areas in 
this budget that were identified for cuts. I am most 
disappointed that the largest reductions, again, were made to 
clean water and drinking water State Revolving Funds (SRF) 
which are cut by 19 percent less than fiscal year 2013 levels.
    I really find it hard to understand how these proposed cuts 
square with the President's focus on job creation and 
infrastructure development. You know, we have discussed these 
statistics before in this subcommittee, but they are worth 
repeating. Just take my home State, and we could take the State 
of any of my colleagues at this dais.
    In Rhode Island alone, we need $1.5 billion in identified 
needs for clean and drinking water projects; that is $1.5 
billion in the smallest State in the country. Yet, the State is 
only slated to receive $15 million in water infrastructure 
grants in this budget request, which is about $3 million less 
than what I expect them to receive in fiscal year 2013.
    Mr. Perciasepe, I know EPA faced tough decisions when you 
put this budget together, but it just does not make sense why 
we should focus such large cuts in programs that create jobs 
and help meet an enormous public health need, infrastructure 
need, economic productivity need in every State in this 
country.
    And since every $1 we spend for the SRF generates more than 
$2 in projects on the ground, that means we are walking away 
from opportunities to further leverage Federal investments with 
local funds and other funds.
    I am also concerned about a number of other reductions to 
the budget, including your proposal to eliminate $10 million in 
BEACH Act grants that help Rhode Island and other coastal 
States. And I do not understand why your budget, again, 
proposes to eliminate nearly $10 million in funding for a 
centralized environmental education program.
    We have just been through two major hurricanes in the last 
several years, Irene and Sandy, and the expectation is that we 
will have more hurricanes. That means our beach erosion is 
going to be exacerbated. And unless we take steps to just try 
to modify these beaches and protect them, we are going to lose 
not only beaches, we are going to lose communities, and we are 
going to tear up the social fabric of States up and down the 
east coast, and I would expect this and similar comments could 
be made by my colleagues on their coast.
    There is another area, funding for the Diesel Emission 
Reduction Act grants is cut by 70 percent, for a total of $6 
million cut. And it is also worth noting that your request 
trims 10 percent from the Brownfields Program, even though 
these grants fund local clean-up and job training efforts that 
redevelop communities and put people to work.
    Mr. Perciasepe, I remain concerned about all these 
reductions, and I look forward to having a chance to discuss 
them further with you and to work on restoring these cuts 
through the appropriations process.
    And now, let me turn to my ranking member, Senator 
Murkowski, for any comments she might have.


                  STATEMENT OF SENATOR LISA MURKOWSKI


    Senator Murkowski. Thank you, Mr. Chairman.
    And I appreciate your kind remarks about our ability to be 
working together on this very important budget, and the work 
that both of our staffs do. As you have indicated, I think it 
is a great working relationship. We have been able to do some 
good things in the past, and I look forward to doing so this 
session as well.
    I would like to welcome our Deputy Administrator, Mr. 
Perciasepe and Chief Financial Officer Froehlich to the 
subcommittee. Good morning to you.
    Most of my questions for you this morning will involve 
policy issues but first, I want to applaud and recognize the 
effort to maintain the Alaska Native Villages Program at $10 
million within the budget request. Rural Alaska, as you know, 
faces some very, very serious challenges in meeting the need 
for wastewater improvement. So I appreciate that you have 
included these funds at a time, as the chairman has noted, of 
very, very tight budgets. I hope that we can do more, but we 
will be working with you in that regard.
    I also want to thank you personally for meeting with my 
staff following last year's budget hearing. There were about a 
dozen different EPA issues that were noted at that hearing. The 
commitment was made that we would work together, follow through 
with some, and you have helped us in that regard.
    Now, some of these issues are very specific to the unique 
circumstances of my State, but in fairness, most of them 
reflect the same problems that communities around the Nation 
are facing with EPA's regulatory actions.
    I do have some concerns over a number of rulemakings that 
the EPA is working on, and their impact on the national 
economy, as well as their impact on Alaska. I hope that you and 
your staff will continue to meet with us, dialogue with us on 
this again this year. And I look forward to discussing that, 
among other things, when we meet later this week.
    When Administrator Jackson appeared before this 
subcommittee last year, I told her at that time that I hear 
more complaints from the people of Alaska about the EPA than 
any other Agency out there. And I can assure you that even 
given the passage of time and the work that has gone on, those 
complaints remain the same. EPA, unfortunately, is still number 
one in the views of many Alaskans as not necessarily a good 
thing.
    The sheer number of rulemakings the EPA is currently 
proposing, the cost of compliance with the vast array of 
regulations already on the books and what, at times, are the 
unreasonable consequences of their enforcement. It is very 
frustrating to the public.
    In the past month alone, the EPA indicated its plans to not 
only finalize regulations for greenhouse gases on new 
powerplants this year, but also to get a significant start on 
rules for existing powerplants in fiscal year 2014. EPA also 
unveiled new draft rules concerning the sulfur content in 
gasoline. And last Friday, it announced new rules for 
concerning water discharges from powerplants.
    And putting aside the merits of these various proposals, no 
one can dispute their far-reaching impacts, from effectively 
barring the construction of new coal-fired plants, to raising 
the cost of gasoline by as much as 10 cents per gallon for the 
average consumer, even though our economy continues to sputter 
and unemployment remains high.
    What I have done is I have asked my staff to keep a list of 
the current rulemakings that are affecting Alaska, our energy 
supply, or both that the EPA is working on. Our list, at this 
point in time, is up to about 60 different rulemakings; not 16, 
but 60 current rulemakings, and there is a fair chance that we 
may have missed one or two. So you can understand how the 
public feels when they just feel that there is this barrage of 
regulations coming at them.
    I would like to leave the subcommittee, my colleagues, with 
one example here this morning, and I think it is a pretty vivid 
example that demonstrates this point. This comes from 
constituents in Soldotna, Alaska down on the Kenai Peninsula, a 
small, little community. It is a husband and wife. They are 
both veterinarians. They own a veterinary clinic, and one of 
the services that they provide for the community is cremation 
of animals.
    When ``Fluffy'' decides that it is time to give up the 
ghost, this veterinary clinic provides for cremation for the 
family pets. And more often than not, it is used during the 
wintertime when you cannot bury your animals because the ground 
is frozen and burial is not possible.
    Now, as I understand it, EPA sent them a notice after the 
comment period had closed. So this small veterinary clinic gets 
a notice from EPA about proposed changes in the rules for 
commercial and industrial solid waste incineration units. And 
when they called to learn more, even though the comment period 
was closed, the EPA official said that all incinerators, even 
the small ones like this very small animal incinerator in 
Soldotna, Alaska would have to undergo what is called ``annual 
source testing''. And this testing, which is designed for 
larger commercial facilities, exceeds a cost of $50,000 
annually. That is more revenue than the clinic generates in a 
year from operating any incinerator.
    According to the veterinarians, the EPA official said that 
the Agency had no leeway in allowing exemptions, even for low 
levels of emissions, and that essentially its hands are tied. 
Now, we are still looking into this. We are still gathering the 
facts. I do have a copy of that letter.
    And Mr. Chairman, I have actually asked that the letter be 
included as part of the record.
    Senator Reed. Without objection.
    [The information follows:]

                             Twin Cities Veterinary Clinic,
                                                      Soldotna, AK.
    Dear Senator Murkowski: My wife and I are veterinarians and the 
owners of Twin Cities Veterinary Clinic in Soldotna. As part of our 
veterinary service we provide pet cremations for clients who desire an 
alternative to burial (or quite frankly landfill disposal) as a 
respectful means to care for the remains of their deceased family pet. 
I am writing to you as a constituent and small business owner who is 
concerned about significant burdens that will soon be imposed on small 
businesses like mine by recent regulations adopted by the Environmental 
Protection Agency. The recently passed Clean Air Act included 
regulations for commercial incinerators and combustion units. Some of 
the changes were announced in March 2011 for CISWI (Commercial and 
Industrial Solid Waste Incineration) units. Apparently the ``new and 
improved'' testing standards were written with large scale commercial 
incinerators in mind, but these standards failed to make any reasonable 
exceptions for small, low-volume units such as mine (a small animal pet 
cremation unit).
    Let me give you a bit of history as to how I was alerted of these 
proposed changes. I received a letter on February 22, 2012, notifying 
me that the EPA had proposed CISWI changes on December 12, 2011. Any 
interested parties could submit comments up until the closure of the 
``public comment period'' which ended February 21, 2012. Naturally one 
would ask, ``How am I to provide comment on something I was made aware 
of one day after the closure of the open comment period?'' I called the 
EPA office number provided and left a voice mail with Heather Valdez 
(Seattle, Washington). Heather was kind enough to return my call the 
next business day and she answered some questions about how this change 
will impact me in the next 3-5 years. You may want to research the 
details to confirm the facts, but below is what gathered from my 
conversation with Ms. Valdez:
    My business would fall under the Clean Air Act ``section 129 CAA 
requirements.'' These OSWl (Other Solid Waste Incinerator) regulations 
are proposed to take effect in 3-5 years. Under these regulations all 
incinerators are required to perform ``Annual Source Testing'' to 
determine if the unit is meeting EPA output and emissions standards. 
When I inquired what source testing entails, Heather noted that this 
testing, which is typically designed for larger commercial facilities 
(i.e. units that burn 250 tons/day), often exceeds $50,000 per annual 
test--and it is charged to the owner. She admitted that this testing is 
not really reasonable or likely affordable for small units like mine 
(especially given that some provide less than $50,000 in gross 
cremation services per year). But based on the current regulations the 
EPA is given ``no leeway'' in the enforcement of this testing 
regulation and there are ``no exemptions'' allowed. In her defense, 
Heather was quite honest and forthcoming about the impacts of the 
regulation on small businesses like mine. She suggested I contact any 
cremation trade organizations to garner their support. She also 
recommended I contact my representatives in Washington to encourage a 
legislative remedy as the EPA's hands are essentially ``tied'' to 
enforce the regulation at this time.
    As you can imagine I am somewhat irritated by the timing of this 
announcement in relation to the comment period. Having received this 
notice 1 day after the public comment period is ludicrous! How can a 
Government agency (that my tax dollars support) propose and enact 
regulations, without proper notification, and without allowing time for 
those affected a chance to comment on the impact of these measures? 
This type of activity leads me to believe the EPA is not accountable to 
anyone, and therefore makes decisions irrespective of how it may harm 
the individuals they are hired to serve.
    In addition, I don't see the need to further regulate small 
incinerators like mine that provide such a small output of emissions. 
Presently we voluntarily contract Periodic Maintenance Inspections 
(PMIs) from the manufacturer of our cremation unit. These inspections 
ensure the safety and efficiency of our cremation unit. The more 
efficient our unit burns, the less gas we use, and the less emissions 
we produce. It is in my best interest for both the business and the 
environment to keep my unit running efficiently and maintained at 
factory standards.
    Senator Murkowski, I hope that you or your staff will have the time 
to look into this regulation. I'm sure that other veterinary hospitals, 
pet cremation providers, and even human cremation providers will be 
significantly impacted by this change. If the projected costs for 
Annual Source Testing are anywhere near those noted by Ms. Valdez, my 
business and likely many others like it will not be able to feasibly 
absorb this fee. The likely end result is that we would not be able to 
provide this valuable service to our clients. I hope you can help find 
a solution to this issue for myself and other small businesses like 
ours across the country. Please review the enclosed copies of 
correspondence I had received from the EPA. I appreciate your 
consideration and would be eager to assist with any follow-up on this 
matter.
            Regards,
                                      James Delker, D.V.M.,
                   Twin Cities Veterinary Clinic, Soldotna, Alaska.

    Senator Murkowski. But we want to work with your staff to 
see if this is the final answer. But I think you can see the 
problem here.
    It would be outrageous, really, if this small family-run 
business has to stop providing a service for local families 
with pets because the cost of compliance with the regulations, 
of dubious environmental benefit at least in this instance, is 
just too high. But it is also emblematic of what many feel 
about the EPA that it is a vast bureaucracy issuing a dizzying 
number of rules that have enormous impact on their lives, while 
conversely, they may have very little input into EPA's 
decisions. And I share these concerns.
    So I look forward this morning, Mr. Chairman, to being able 
to ask questions of the Acting Administrator to understand a 
little bit more of the budget and the priorities. But I think 
this is an agency where, again, the impact on so many across 
our country, our families, our businesses, this is seen very 
much throughout what comes out of EPA. So very important this 
morning, and I appreciate your leadership in this oversight 
role.
    Senator Reed. Thank you very much, Senator Murkowski.
    Just to establish our routine, we will use our normal 
procedures, recognizing Senators based on their arrival, 
alternating from side to side. And before I ask Mr. Perciasepe 
for his statement, is there any of my colleagues that would to 
make very brief opening remarks or comments?
    If that is not the case, then Mr. Perciasepe, your 
statement will be made part of the record, without objection. 
Feel free to summarize your comments.
    Mr. Administrator, please.

                  SUMMARY STATEMENT OF BOB PERCIASEPE

    Mr. Perciasepe. Thank you Mr. Chairman and Ranking Member 
Murkowski.
    I appreciate the opportunity to be before you today and all 
the members of the subcommittee, to talk about our proposed 
fiscal year 2014 budget.
    EPA's budget request of $8.153 billion for 2014 fiscal year 
reflects our ongoing efforts to change the way EPA does 
business. To invest in more efficient ways for the agency to 
operate and to further reduce costs wherever possible, while 
preserving and enhancing our ability to carry out EPA's core 
mission to protect human health and the environment. It is the 
product of many internal discussions in the administration, and 
tough choices that you have already identified, in some cases.
    In the end, we believe this budget will enable us to work 
toward the goals that the Congress has established for EPA to 
effectively and efficiently implement the laws.
    Let me run by a few of the key highlights, and I will try 
to be quick.
    Despite these fiscal challenges, supporting State and 
tribal partners, they are our key partners in implementing the 
Federal environmental statutes that have been enacted, remains 
a priority for EPA. And the State and tribal assistance grants 
account for nearly 40 percent of our entire budget for fiscal 
year 2014. I want to point out that it includes a $57 million 
increase more than the fiscal year 2012 enacted amount for 
specific grants to help States, tribes, and operations.
    You have already mentioned, and I want to emphasize again, 
that we have done some disinvesting and reinvesting in the 
budget including a $60 million project that we are beginning 
that we are calling E-Enterprise. It may sound a little bit 
esoteric, but really, what we are trying to do is move EPA and 
working with States and tribes into the 21st century in how you 
transact business with the rest of the world.
    And we are learning from the States. Many States are 
starting to move in this direction. And what we are really 
looking at is something that is going to reduce regulatory 
paperwork, reduce our regulatory reporting burden, but at the 
same time make some of the work that we do together with States 
and tribes to be more transparent. We see this as an investment 
in the future of a more efficient operating EPA.
    We also have, in fiscal year 2014, a request for $176.5 
million to support a variety of partners and stakeholders, and 
our own work on greenhouse gas emissions. It is important to 
note that this funding also includes support for successful 
programs like ENERGY STAR, the Global Methane Initiative that 
we work on, greenhouse gas reporting programs, SmartWay, which 
is a program we work on with the trucking industry, and several 
others. It also includes $20 million on research of some of the 
impacts of climate change as we start to look at mitigation.
    Nutrient pollution is a pretty important problem throughout 
the country in our waterways, and we have requested in this 
budget a $15 million increase in State grants to help the State 
agencies begin that process of putting plans together that more 
specifically coordinate for nutrient reductions.
    You mentioned the SRF, again, a number of painful choices 
here, but we continue to fund these SRF at $1.1 billion for 
clean water and $817 million for drinking water. We have been 
capitalizing these funds, the clean water one, since 1987 and 
the drinking water one since 1996 when the Safe Drinking Water 
Act Revolving Fund was created. And when we get into the Q&A, 
we could talk about how they are currently operating.
    But we are also--I think this is pretty important--working 
with the Conference of Mayors, the Association of Water Quality 
Agencies, and the National Association of Counties on, what we 
call, an integrated planning, or really, basically, it is 
trying to get ahead of the curve on trying to deal with the 
issues that we have at the municipal level. Look for lower cost 
ways to solve some of the problems.
    And I am sure most of you have heard of the concept of 
green infrastructure, which is very helpful in some parts of 
the country that will allow us to find more cost-effective ways 
and a better life-cycle cost for some of the infrastructure.
    So even though the annual capitalization of the SRF has 
declined through the years, in addition to the amount that is 
already there, plus looking at new, more cost effective ways to 
solve the problems, we are hoping that we can continue to make 
the progress we need to make.
    We also have $1.3 billion for land cleanup. This is 
Superfund. This is emergency response. This also includes 
funding for Brownfields Programs as well, and some of those are 
included in our State grants.
    We have $686 million for chemical safety. This includes 
both pesticides and other chemicals in commerce, and looking at 
how we can make sure--well, first of all, we want to make sure 
we are processing and working through the risk assessments that 
we have to do for pesticides in a timely fashion, and 
appreciated the support from the Congress last year on the 
Pesticide Registration Improvement Act.
    Finally, we are looking at some of these hard choices you 
mentioned. Our budget includes $54 million in savings, some of 
which is reinvested in programs that, we think, other people 
can carry on or that their level of effort has declined and we 
need to shift the funds to other activities.
    And then you noted a number of programs have received a 
larger than the rest reduction as we look to build some of 
these other programs.
    Finally, I will just say in addition to looking at how we 
operate with things like E-Enterprise and doing that we have a 
governance system with the States that we are using to move in 
that direction together.
    We are also looking at our own infrastructure, how many 
buildings EPA occupies. How many labs do we have? How do we 
consolidate and modernize where necessary to shrink the space 
and/or improve the energy profile? And we continue to save 
money.

                           PREPARED STATEMENT

    We have moved away from more than 400,000 square feet of 
rented space in the last number of years, and we also continue 
to save money on some of our operating costs. So we are very 
excited about some of that work in terms of our own 
improvements.
    So I will stop there with that very brief summary, Mr. 
Chairman and Ranking Member Murkowski, and we will get onto the 
questions.
    [The statement follows:]

                  Prepared Statement of Bob Perciasepe

    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you once again for the opportunity to appear before 
you to discuss the Environmental Protection Agency's (EPA's) proposed 
fiscal year 2014 budget. I'm joined by the Agency's Acting Chief 
Financial Officer, Maryann Froehlich.
    The President's fiscal year 2014 budget demonstrates that we can 
make critical investments to strengthen the middle class, create jobs, 
and grow the economy while continuing to cut the deficit in a balanced 
way. The budget also incorporates the President's compromise offer to 
House Speaker Boehner to achieve another $1.8 trillion in deficit 
reduction in a balanced way. By including this compromise proposal in 
the budget, the President is demonstrating his willingness to make 
tough choices. EPA's budget request of $8.153 billion for fiscal year 
2014 starting October 1, 2013, reflects our ongoing efforts to change 
the way EPA does business--to invest in more efficient ways for the EPA 
to operate, to further reduce costs wherever possible all while we 
preserve and enhance our ability to carry out the EPA's core mission to 
protect human health and the environment.
    The President's budget reinforces our firm commitment to keeping 
American communities clean and healthy, while also taking into 
consideration the difficult fiscal situation and the declining 
resources of State, local, and tribal programs.
    EPA's requested budget will allow us to continue making progress 
toward cleaner air, addressing climate change, protecting the Nation's 
waters, supporting sustainable water infrastructure and protecting 
lands and assuring the safety of chemicals.
    It is the product of long discussions and difficult choices. In the 
end, we believe this budget will enable us to work toward EPA's goals 
as effectively and efficiently as possible.
    Let me run through a few highlights from the President's fiscal 
year 2014 budget request.
    Despite the fiscal challenges we face, supporting our State and 
tribal partners, the primary implementers of environmental programs, 
remains a priority of the EPA. Funding for States and tribes through 
the State and Tribal Assistance Grants account is once again the 
largest percentage of the EPA's budget request--at nearly 40 percent in 
fiscal year 2014. The fiscal year 2014 budget includes a total of $1.14 
billion in categorical grants.
    We have requested a $60 million investment in an EPA-wide 
initiative to develop new tools and expand systems designed to reduce 
the regulatory reporting burden on regulated entities, and provide EPA, 
States, and the public with easier access to environmental data for 
compliance monitoring and other purposes. This new initiative is fully 
paid for, so does not add a single dime to the deficit.
    This project--what we call ``E-Enterprise''--would enable 
businesses to conduct environmental business transactions with 
regulators electronically through a single interactive portal, similar 
to online banking. The paperwork and regulatory reporting burden would 
be reduced thanks to more efficient collection, reporting, and use of 
data, in addition to regulatory revisions to eliminate redundant or 
obsolete information requests. The initiative will encourage greater 
transparency and compliance.
    The result will be widespread savings--for industry and for the 
States and tribes. For example, E-Enterprise builds on efforts such as 
the e-manifest system which is projected to reduce reporting costs for 
regulated businesses by up to a range of $77 million to $126 million 
annually, because it replaces the millions of paper manifests for 
hazardous waste shipments with a modern tracking and reporting system.
    The fiscal year 2014 request also includes $176.5 million to 
support the agency's work with partners and stakeholders to address 
greenhouse gas emissions and its impacts. These funds will help reduce 
emissions--both domestically and internationally--through careful, 
cost-effective rulemaking and voluntary programs that focus on the 
largest entities and encourage businesses and consumers to limit 
unnecessary greenhouse gas emissions.
    Some of this funding will support existing, successful approaches 
like ENERGY STAR, the Global Methane Initiative, the GHG Reporting 
Rule, and State and local technical assistance and partnership 
programs, such as SmartWay. Approximately $20 million will go toward 
research, so we can better understand the impacts of climate change on 
human health and vulnerable ecosystems. Our requested budget contains 
$175 million to support our Clean Air Act-mandated work to develop, 
implement and review air quality standards and guidance. This funding 
will also allow EPA to enhance our support to our State, local, and 
tribal partners to implement the programs.
    Nutrient pollution is one of the Nation's most widespread and 
challenging environmental problems. To assist in tackling this 
challenge, EPA is requesting an increase of $15 million in Clean Water 
Act section 106 Water Pollution Control grant funding to support 
States, interstate agencies and tribes that commit to strengthening 
their nutrient management efforts.
    Ensuring that Federal dollars provided through the State Revolving 
Funds support effective and efficient systemwide planning remains a 
priority for EPA. The fiscal year 2014 budget request includes $1.1 
billion for the Clean Water State Revolving Fund (SRF) and $817 million 
for the Drinking Water SRF. This money will also assist EPA efforts to 
expand and institutionalize the use of up-front planning that considers 
a full range of infrastructure alternatives like ``green'' 
infrastructure, so that the right investments are made at the right 
time, and at the lowest life-cycle cost. This budget request will allow 
the SRFs to finance approximately $6 billion in wastewater and drinking 
water infrastructure projects annually.
    In fiscal year 2014, EPA is requesting more than $1.34 billion for 
its land cleanup programs to continue to apply the most effective 
approaches to preserve and restore our country's land. This money will 
go toward developing and implementing prevention programs, improving 
response capabilities, and maximizing the effectiveness of response and 
cleanup actions. EPA is also renewing its request to reinstate the 
Superfund tax in order to provide a stable, dedicated source of revenue 
for the Superfund Trust Fund and to restore the historic nexus that 
parties who benefit from the manufacture or sale of substances that 
commonly contaminate hazardous waste sites should bear the cost of 
cleanup when viable potentially responsible parties cannot be 
identified.
    Ensuring the safety of new or existing chemicals in commerce to 
protect the American people is another top priority. Chemicals are used 
in the production of everything from our homes and cars to the cell 
phones we carry and the food we eat. The $686.2 million requested in 
fiscal year 2014 will allow EPA to continue managing the potential 
risks of new chemicals entering commerce, without impacting progress in 
assessing and ensuring the safety of existing chemicals. These 
resources encompass all efforts across the agency associated 
specifically with ensuring chemical safety and pollution prevention, 
including research and enforcement.
    EPA's research budget provides $554 million to support critical 
research in key areas, ranging from chemical safety to water 
sustainability to climate and energy to human health. This research 
will help advance the administration's commitment to healthy 
communities and a clean energy future.
    Finally, let me discuss some steps we are taking to ensure taxpayer 
dollars are going as far as they possibly can.
    The budget includes $54 million in savings by eliminating several 
EPA programs that have either completed their goals or can be 
implemented through other Federal or State efforts. Adding to these 
savings and demonstrating a willingness to make tough choices, more 
than 20 EPA programs, are being reduced by 10 percent or more in fiscal 
year 2014.
    EPA has also been laying the groundwork to ensure the best use of 
human resources, which will continue in fiscal year 2014. We will 
continue to analyze our workforce needs to achieve EPA's mission 
effectively and efficiently. This is reflected in our full-time 
equivalent request for fiscal year 2014, which is our lowest in 20 
years.
    We also continue to look for opportunities to consolidate physical 
space and reduce operating costs at our facilities nationwide. Ongoing 
improvements in operating efficiency, combined with the use of advanced 
technologies and energy sources, have reduced energy utilization and 
saved nearly $6 million annually.
    In fiscal year 2014, we are requesting $17 million in the building 
and facilities appropriation to accelerate space consolidation efforts, 
which will result in long-term savings in rent and operating costs. By 
consolidating space, we have, since 2006 released approximately 417,000 
square feet of space at headquarters and facilities nationwide, 
resulting in a cumulative annual rent avoidance of more than $14.2 
million.
    Mr. Chairman, thank you for the opportunity to testify today. While 
my testimony reflects only some of the highlights of EPA's budget 
request, I look forward answering your questions.

    Senator Reed. Thank you very much, Mr. Administrator.
    We are going to do 6-minute rounds. I anticipate at least 
two rounds, and let me begin.

                         STATE REVOLVING FUNDS

    No surprise, let's talk about the SRF. First, your own 
estimate suggests that in the next 20 years, we are going to 
have to spend, as a Nation, about $633 billion on 
infrastructure: clean water and other water projects. The 
American Society of Civil Engineers has given our clean water 
structure a ``D'' grade. So there is no question about the need 
to do this.
    And then the other aspect of this which, I think, you have 
to consider--and certainly the President does--is that these 
jobs put people to work at a time when we desperately need to 
do that.
    So how do you justify the discrepancy between the huge cuts 
in this program and the huge needs, obvious needs, for 
infrastructure investment and also need for jobs?
    Mr. Perciasepe. I have to sort of couch many of these 
questions as painful as they are with the painful choices that 
we have to make in the budget. And I actually was involved with 
setting up a SRF when I was the secretary of environment in the 
State of Maryland. And so, I have been at the very beginning of 
this program and recognize the real advantages of having it.
    But we have also had appropriations and capitalization to 
this fund for the years since 1987, and in the last 5 years, we 
have put nearly $20 billion into this program, including 
appropriations that were included in the American Recovery and 
Reinvestment Act. So the fund has a significant amount of 
capitalization, much more than the Congress originally 
envisioned.
    So when I look at what actually happened in 2012 between 
the capitalization grants that EPA gave, the reuse of the 
repayments that come back in from loans that are already 
outstanding, and the leveraging of those loans, the SRF 
programs together, both water and drinking water, clean water 
and drinking water, funded almost $7.7 billion of 
infrastructure improvements.
    So when we look at that landscape and have to make these 
hard choices, we are trying to look at how we can make sure we 
keep capitalizing that fund so it keeps growing, but also 
working with the States and local governments on more efficient 
ways to use the fund and, perhaps, reduce the impact of what 
the Society of Civil Engineers were looking at in the long 
haul.
    But there is no doubt about it that the country has a 
significant gap in funding of water infrastructure. And I think 
the challenge for us together is how much of that gets funded 
by the Federal Government versus local funds versus State 
funds.
    But this was a tough choice we made. I am giving you some 
background as to what we think, how we continue to carry 
forward.
    Senator Reed. Just to elaborate. Even at the $7.7 billion 
level times 20, and I am always suspicious of my math, roughly 
$150 billion. Your 20-year projection is $633 billion of work. 
So we are at a $500 billion gap between what you need you have 
to do and what we are doing.
    So even if that $7 billion total is consistent with prior 
years or maybe a little up, it is greatly lacking the demand. 
So for the record, let's make sure we make that point.

                      HURRICANE SANDY SUPPLEMENTAL

    Let me shift to a more detailed issue with respect. EPA 
receives $600 million in mitigation, the recent Hurricane Sandy 
supplemental going to try to affect some of these water 
problems, both drinking water and other water projects. Many 
States, even adjacent States, did not get direct access to it.
    But how are you using these funds to help out today? And 
what about those States that suffered in Sandy, but did not get 
direct access to funds like Rhode Island?
    Mr. Perciasepe. Well, let me talk about the law as enacted 
and what we are doing.
    We are working with New York and New Jersey, obviously, to 
allocate the funds that were developed for water and wastewater 
systems, and identify the priority facilities to receive that 
funding, to improve their resilience.
    And I actually had the pleasure of being at a sewage 
treatment plant with you, Senator, after the floods in Rhode 
Island a couple of years ago where we did not move the plant 
but, working with our regional office, we actually looked at a 
way to make the plant more resilient for the next time it 
floods. Sewage plants are often located at the low point in 
town. And so, rather than move them and have the expense of 
pumping wastewater uphill, we want to make them more resilient, 
recognizing that they may be flooded.
    And so, we are looking at places like that where we have 
found ways to do that, so that we can work with the two States 
to improve the resilience of some of those plants.
    Now, in the Sandy instance, there are other funds that are 
involved. Federal Emergency Management Agency (FEMA) has funds, 
and part of that was appropriated plus their existing funding, 
to restore what was there, and there was also funding in the 
Community Development Block Grant program that the Department 
of Housing and Urban Development (HUD) has. So what we are 
trying to do in an interagency taskforce level, is to look at 
all those fundings together and how they would be impacted--how 
they can be impactful together.
    So if you have funding from the SRF into the actual sewage 
treatment plant, can we use Community Development Block Grant 
funds to look at some of the conveyance system issues that may 
be in place, and look at techniques like green infrastructure, 
reduce the amount of runoff that gets to the sewage treatment 
plant during these high rain events.
    So we are looking at how to integrate all that together and 
I guess that is a tail into the second part of your question 
about what about the other States. I think that to the extent 
that they were in an area that is covered by the Stafford Act, 
we would be able to do, I hope, similar things like we did in 
Rhode Island to some of those plants in terms of using funds 
from FEMA and other sources to try to improve resiliency so 
that we reduce the impact of future events, which I think we 
have to predict will occur.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                    BRISTOL BAY WATERSHED ASSESSMENT

    Mr. Perciasepe, let's talk for a moment here about the 
Bristol Bay Watershed assessment that EPA is conducting.
    I understand that we anticipate an announcement on this 
relatively shortly, is what I am told. But when EPA undertook 
this assessment after being petitioned to preemptively veto 
development within the area, EPA moves forward. The assessment 
is based on this hypothetical mine plan to predict impacts from 
mineral development. Obviously, this assessment is being 
watched very, very carefully by many Alaskans and, actually, 
many folks outside of the State.
    I was just visited yesterday by individuals who live within 
the region or work within the Bristol Bay region, and we had a 
discussion about this assessment, whether or not EPA has 
sufficient funding to do a thorough assessment to really 
collect the massive data that will be required for study of a 
watershed area of this size.
    We have asked, my staff asked numerous times, about how 
much is being spent on the watershed assessment. We still have 
not been able to receive an accounting of that and this is 
exactly what we try to do here in this subcommittee.
    Can you tell me why we have not been able to receive this 
information up to this point in time? And then also in this 
same area is: when might we expect to see the announcement from 
EPA on the watershed assessment?
    Mr. Perciasepe. I will get used to this in a second, the 
button. Thank you, Senator.
    There are a couple of questions in there, but they are all 
related to the same point.
    One of the--let me--the first part of it is when can we 
expect--we are hoping shortly to be--we are cognizant----
    Senator Murkowski. ``Shortly'' is an ill-defined term in 
the Congress. Can you give me anything better?
    Mr. Perciasepe. Well, let me try, that we are very 
cognizant of the fishing season demands on people and we want 
to make sure that whatever we do is going to accommodate folks 
in the region to be able to have the time to be able to look at 
this report.
    So I cannot say it is going to be next week, but it's, you 
know, we are within weeks of doing this so that we can have it 
out there during the May time period, so that people will be 
able to look at it. And then, let me work backward just a 
little bit to the other parts of the question.
    One of the things that has created some complexity in 
analyzing all the full costs of this is how we responded to the 
peer reviewers on the first draft. And so, we had to see what 
they said, and then figure out how we reconstruct it or 
responded to the advice we got from them, which is what we have 
now done, and now we are putting out this report.
    So I think we will be, again, using a word that I can tell 
you are not completely comfortable with, we should be able to 
soon be able to tell you what those costs are now that we have 
put this final, another final draft together to put out for 
peer review again.
    So I can tell you that I am going to try to make sure that 
we get that answer to you with the knowledge of what we have 
just done now on this other one.
    In terms of adequate resources, again, it is related and 
so, you've got all this correctly connected. And that is when 
we got the peer review comments from the first draft and we had 
to pull different parts of EPA together to make sure we 
responded appropriately, that work was to make sure that we 
have the adequate resources to put to it. So we will now, once 
we get this next report out for public and peer review--and we 
are going to peer review it again, I think you know that--we 
will be in a position to be able to analyze what all the costs 
were that went into it.
    Senator Murkowski. Well, if you can encourage that shortly 
is sooner rather than later, as you know, fishing season is 
coming fast upon us. And again, we want to make sure that if 
the study is out there, that it is complete and it is thorough, 
but it seems to me that we ought to be able to get a better 
accounting.

                    AUTHORITY UNDER CWA SECTION 404

    Let me ask you about a decision that came out of the D.C. 
Circuit Court yesterday. This was the decision concerning the 
Agency's retroactive veto of dredge and field permits that are 
issued by the Army Corps of Engineers. This is the Mingo Logan 
Coal Company v. EPA.
    I have to tell you, I am concerned about what we have seen 
coming out of the Circuit Court here. If the EPA can withdraw, 
in effect, the Army Corps' permit at any point, how can you 
ever give the assurance that any permit is ever final if you 
have got this dangling out there that it can be removed almost 
unilaterally by the EPA?
    And a couple of follow-ons to that is whether or not within 
EPA, how you are going to proceed with this authority, whether 
or not the EPA will use this authority preemptively.
    What are the consequences of this court decision yesterday?
    Mr. Perciasepe. I know that--I heard that the court 
decision was made, but I have not really had time to look at, 
nor have I gotten a summary, in the last 12 hours, of what 
exactly the court said.
    But I can point out at a very high level, Senator, that the 
authority is in the Clean Water Act under section 404, since 
1972, has been used 13 times in the history of the law. So it 
is not something that EPA takes very frivolously through all 
the different administrations that have used it. And that 
authority has been used in both Democrat and Republican 
administrations. So it is a very rarely used authority.
    I do not have a good handle right now, in front of you, but 
maybe we might be able to talk about it later this week when we 
get together exactly what this does to that authority.
    Senator Murkowski. Well, I would appreciate the opportunity 
for that discussion. I know that this is going to be on the 
minds of many, many Members because, again, even though it has 
not been used on a very frequent basis. If you are looking to 
develop anything and the threat exists that your permit that 
has been issued could be retroactively pulled from underneath 
you, it injects a level of uncertainty in just about anything 
going forward, whether it is the coal mining or whatever the 
activity might be.
    So I think we are all going to have to get up to speed on 
this a little bit more.
    Mr. Chairman, I have exceeded my time, and I apologize.
    Senator Reed. Thank you very much, Senator Murkowski.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.

                 URANIUM POLLUTION--INDIAN RESERVATIONS

    And Mr. Perciasepe, thank you very much for your service. I 
am going to focus a couple of questions on the uranium 
pollution that has occurred on the Navajo Reservation and the 
Hopi Reservation, and this is a legacy issue that has been 
going on for many years. And I believe the EPA has been very 
active in this.
    In fact, the EPA Region 9 recently concluded a 5-year plan 
to address uranium contamination on the Navajo Nation, and 
coordination with several other agencies including the Bureau 
of Indian Affairs, the Department of Energy, the Nuclear 
Regulatory Commission, and others, EPA Region 9 was able to 
take significant steps towards addressing uranium legacy issues 
on the Navajo Nation and the Hopi Nations.
    It is my understanding that EPA is coordinating with other 
agencies to identify next steps in clean up of uranium 
contamination and expects to have a new 5-year plan for this 
region put together by this coming fall.
    Additionally, EPA Region 6, which covers the rest of New 
Mexico, is currently carrying out a similar 5-year plan to 
address legacy uranium in my home State. I appreciate the 
Agency for taking these deliberate steps to address this 
important public health and environmental issue.
    And my question is will Region 6 and Region 9 have adequate 
resources under this budget to continue these long overdue 
cleanup projects to address this toxic cold war legacy?
    Mr. Perciasepe. The short answer is ``Yes.'' The little bit 
of context is we are very proud of how we have moved forward on 
these legacy issues in the last 5 years, and we think that they 
are important and must be dealt with. And I am very happy with 
the coordination between the State, the tribe, Bureau of Indian 
Affairs, the other agencies, as you have pointed out, as well 
as between the EPA regions.
    The only asterisk that I have to put on that, and I am not 
trying to make a statement here, I am just telling you, it is a 
real asterisk that you and the Appropriations Committee have to 
think of. If there is a sequestration, depending on how that 
falls down, there could be some impact on some cleanup 
projects. We have already had impact on cleanup projects this 
year because everything was cut by 5 percent.
    But with that asterisk, we expect to have the funding in 
this budget to be able to move forward on the first part of 
that 5-year plan.
    Senator Udall. Great. Thank you.
    And I think your answer emphasizes the fact that 
sequestration really hits some long-term projects in a 
significant way. I do not want to see that happen because I 
believe that this is a project, as I said, long overdue, that 
has to be completed, and it is on a good track now, and we 
should not have to see it setback.

                              BROWNFIELDS

    A question on Brownfields. Last month, I joined Senator 
Lautenberg, Senator Crapo and Senator Inhofe, to introduce the 
Brownfields Utilization Investment and Local Development Act. 
We call it the BUILD Act. This legislation would modernize and 
improve key elements of the EPA's Brownfields Program.
    Since 2002, the successful program has funded the 
rehabilitation of abandoned and polluted properties to increase 
safety and attract new businesses to communities. In New 
Mexico, we have great success stories like the Santa Fe Rail 
Yard and the old Albuquerque High School. Two areas were 
revitalized from hazardous areas to become economically 
productive and important cultural spots.
    I am concerned about the cuts to the Brownfields Program. 
This program leverages valuable private investment and pays 
dividends to economic prosperity.
    Do you agree that there are more productive projects out 
there than this funding level will support? And if so, does EPA 
see any ways to help these limited dollars go farther?
    Mr. Perciasepe. First of all, being a former city planner 
earlier in my career, this is one of my favorite little 
programs at EPA, and I think it has done more than many to 
enhance the quality of life in communities across the country.
    In fact, I think there isn't an area, a place in the 
country that hasn't had some project along the lines that you 
have just mentioned where they can point to the fact that the 
flexibilities afforded in cleanups to get these properties to 
beneficial use and community-focused use faster. I just have to 
say it is oversubscribed.
    One of the things that we have been doing in the last 
several years through an agreement with the Department of 
Transportation and the Department of Housing and Urban 
Development, is a sustainable communities memorandum of 
understanding (MOU) among the three agencies so we can look at 
how we can pool our resources in some of these communities.
    So we may take a little longer to, perhaps, do a 
Brownfields Project, although we are working on it. That does 
not mean that we cannot be in that community doing some of the 
other preparatory work with Community Development Block Grant 
funds or some Transportation funds.
    And I was just recently in Cincinnati where we are looking 
at additional Brownfields redevelopment sites along the route 
of their light rail or trolley system that they are building 
through the Over-the-Rhine neighborhood. And at the same time, 
we are using HUD funds to do housing stabilization projects in 
that community.
    So one part of that is the tri-party effort is to really 
work in those communities to get properties back into use, 
productive use, and to get the communities revitalized. We are 
looking at ways to be efficient with all the funds.
    That is not the best answer, I just want to say, but it is 
something we should do regardless. And if we all had more 
money, we would go faster in more communities, there is no 
doubt about it.
    Senator Udall. Thank you very much.
    Mr. Chairman, I have exhausted my time. Thank you.
    Senator Reed. Thank you.
    Senator Blunt.

                     STATEMENT OF SENATOR ROY BLUNT

    Senator Blunt. Thank you, Mr. Chairman.
    I have a statement for the record, and I will submit that.
    [The statement follows:]

                Prepared Statement of Senator Roy Blunt

    Thank you, Chairman Reed and Ranking Member Murkowski, for holding 
this hearing today. I welcome this opportunity to examine the budgetary 
needs of the Environmental Protection Agency.
    I would also like to thank Acting Administrator Robert Perciasepe 
for being here today.
    EPA is requesting $8.153 billion, which is $296 million (3.5 
percent) below fiscal year 2012 enacted levels. While this is a step in 
the right direction, I have serious concerns with the way the EPA is 
prioritizing spending.
    For instance, the agency very clearly admits in its budget 
justification that as a result of fiscal cuts, EPA must make 
``difficult decisions resulting in reductions to support for water 
infrastructure.'' State Revolving Funds, which provide critical support 
to how municipalities finance water infrastructure projects, will be 
cut by almost a half-billion dollars from fiscal year 2012 enacted 
levels. This continues the pattern of the continual cutting of Federal 
money for water systems over the past decade.
    Yet your own agency has conducted studies finding that 30 percent 
of pipes in systems that deliver water to more than 100,000 people are 
between 40 and 80 years old. Further the EPA 2009 Drinking Water 
Infrastructure Needs Survey and Assessment found that our Nation's 
community water systems will need to invest an estimated $334.8 billion 
between 2007 and 2027.
    In contrast, the EPA has requested $176.5 million for climate 
change efforts, which is $8.1 million above fiscal year 2012 enacted 
levels. The agency plans to use this funding to advance the pending 
proposal to set New Source Performance Standards (NSPS) for carbon 
dioxide emissions from new powerplants.
    The proposed NSPS rule will set unprecedented standards under the 
Clean Air Act, harm our economy, and endanger electricity supply--which 
is almost 50 percent coal fired. Missouri is 82 percent coal fired. The 
proposed NSPS rule would effectively ban these new coal plants from 
being built.
    This on top of the fact that many existing EPA regulations seek to 
prevent existing coal sources from making upgrades to improve 
efficiency and allow for more electricity generation with less fuel and 
less emissions.
    Spending our Federal dollars to kill the use of coal in this 
country but not improve our Nation's water infrastructure is a far cry 
from a common sense approach to protecting the environment.
    EPA needs to expend Federal taxpayer dollars in a way which takes 
into account the cumulative way in which each agency regulation affects 
ratepayers. One such way is to let communities develop local plans that 
achieve the ``biggest bang for the buck'' toward environmental 
protection and keep rates affordable.
    The agency should not spend taxpayer dollars on massive, burdensome 
regulations that hamstring the economy, kill jobs, and hike up 
electricity prices. This is not the right path forward for our country.
    Thank you, and I look forward to your testimony.

    Senator Blunt. And I have some questions.
    Mr. Perciasepe, you are the Acting Administrator, and I 
actually have a hold on the nominated Administrator. Based on a 
commitment from the administration that they made in February 
to Senator McCaskill and me that they would just agree, they 
would see that the organizations involved in coming up with the 
environmental impact study for a project in southeast Missouri 
would agree to the facts by March 15.
    They set the deadline. We did not ask for the deadline. The 
call on March 15 was, ``Well, we cannot get this done by the 
day we said we would get it done.'' And we have had no outreach 
from EPA in our office at all. I do not know how many Senators 
have holds on the nominee, but it must be so many that there is 
no interest in doing anything about the holds that are out 
there.

                                WETLANDS

    Principally, there are a couple of concerns on this topic. 
One is the estimate of wetlands that your organization came up 
with originally was 118,000 acres.
    The USDA said it was 500 acres. The Fish and Wildlife 
Service said it was somewhere in between. You said 118,000 
acres. And I think the last estimate that you all have made is 
5,000 acres, which is an interesting, the difference in 118,000 
and 5,000--your own estimate--is intriguing to me.
    And then you created a new category of wetlands that is not 
defined anywhere else in Federal law, which is, ``wetlands in 
agricultural areas''. I have two or three questions on this.
    One, why do you think the wetlands determinations from your 
Agency have been so different on this one project?
    Mr. Perciasepe. I have not looked at those particular 
numbers. But when you just mentioned agriculture, there are 
prior converted wetlands that are not covered under certain--
they are not covered under the Clean Water Act. Somebody could 
have been adding those in, in the original one, and now they 
are looking at different ones. I----
    Senator Blunt. Do you know if the Agency has provided any 
recent information to the Corps on this topic or not?
    Mr. Perciasepe. We have on--going back to the original part 
of your question----
    Senator Blunt. Yes.
    Mr. Perciasepe. We have ongoing conversations with the 
Corps, and what I think I can commit to you, Senator, is that 
the next critical step in this, in addition to the information, 
is that the Corps of Engineers needs to be put together the EIS 
document----
    Senator Blunt. Right, right.
    Mr. Perciasepe. And I think what we are all working on very 
hard is to get the Corps to get whatever information they need 
so they can get that document done. And then we will respond as 
quickly as--we will respond right away. Our Regional 
Administrator is prepared to do that and we want to move 
quickly once we get that document.
    So people are working on this, and I can provide more 
information----
    Senator Blunt. Yes. I want you and my colleagues to both 
understand that this is not about trying to force a project to 
be built or anything else. It is just trying to get the 
Government to quit arguing with the Government.
    This is trying to get the Government to agree on the facts, 
which does not seem--actually, it seems that the administration 
is simple enough project that they thought it could be done 
well over a month ago. And this is after a couple of years of, 
``Why is this not getting done?'' ``Well, we don't agree on the 
facts.'' We would just like the Government to agree on the 
facts of whatever you can do----
    Mr. Perciasepe. I will.
    Senator Blunt [continuing]. Of course, if this was left up 
to me on this issue, you could be the Acting Administrator 
forever. Maybe you are very popular at the Agency and they just 
do not want to respond to these pretty simple questions.
    Mr. Perciasepe. Well, our role in this is to review the 
work that the Corps of Engineers does. We are not the one doing 
the environmental impact statement (EIS).
    But I--we will help them get it done. As soon as they get 
it done, we will do the comments on it. That is the normal way 
we reconcile things is get that EIS process going. So I think 
that is the key here.

                        WETLANDS--VETO AUTHORITY

    Senator Blunt. And you would have ultimate authority on the 
wetlands question based on this veto potential that you always 
have on an issue like this? Is that right?
    Mr. Perciasepe. Yes, under the Clean Water Act, the EPA 
writes the guidelines, which we have done many years ago on how 
to make the wetlands determinations. And so, the Corps uses 
those guidelines to do it. And there are some agricultural 
converted wetlands that are not part of that process. They may 
be something that somebody will analyze in an environmental 
impact study, but they are not part of the Clean Water Act 
process.
    Senator Blunt. But you can veto these projects even while 
they are going on based on what I think I just heard you say to 
Senator Murkowski?
    Mr. Perciasepe. I think that that is an untested--what she 
was--what the Senator was referring to was a court decision 
yesterday that was related to a veto after a project had 
already been permitted, not in advance of it.
    Senator Blunt. So you have no question you could veto it 
before.
    What is the open question, whether you could veto it after 
or not?
    Mr. Perciasepe. All the times that we have used the veto 
authority that is under--and really it is--the authority is 
actually to remove a section of water from being able to have 
fill materials discharged into it. But we use the common word 
of ``veto'', which I do not think is actually in the act.
    But all the times it has been used, to my memory, and I 
could double check this for the record, has been after the 
Corps project review process has begun.
    Senator Blunt. And before work has begun or do you know?
    Mr. Perciasepe. If you want detail on all the times it has 
been used, I will have to get it for the record.
    Senator Blunt. I do. I want----
    Mr. Perciasepe. I don't have that.
    Senator Blunt. I want detail on all the times it has been 
used and look forward to you providing that.
    [The information follows:]
    Timing of EPA Action Under Section 404(c) of the Clean Water Act
    EPA uses its authority under section 404(c) of the Clean Water Act 
judiciously and sparingly. In the over 40 year history of the Clean 
Water Act section 404 program, EPA has used its authority under section 
404(c) a total of 13 times. This is a particularly small number in 
light of the tens of thousands of projects that the U.S. Army Corps of 
Engineers authorizes in the Nation's wetlands, streams and other waters 
each year. EPA can exercise its authority under section 404(c) before a 
section 404 permit application has been submitted, while a permit 
application is under review, after a permit has been issued or in 
instances where a regulated discharge does not require a section 404 
permit (e.g., Corps Civil Works projects). EPA has exercised its 
authority in the following contexts:

----------------------------------------------------------------------------------------------------------------
                                                                                           Location
                                                                             -----------------------------------
          Project Name             Initiation and Final Determination Dates     EPA
                                                                               Region   State    Corps District
----------------------------------------------------------------------------------------------------------------
Spruce No. 1 Surface Mine......  Initiated October 16, 2009.................       3       WV   Huntington
Surface Coal Mine                Final Determination issued January 13, 2011
----------------------------------------------------------------------------------------------------------------
Yazoo Pumps....................  Initiated February 1, 2008.................       4       MS   Vicksburg
Flood Control Project            Final Determination issued August 31, 2008
----------------------------------------------------------------------------------------------------------------
Two Forks......................  Initiated March 24, 1989...................       8         CO Omaha
Water Supply Impoundment         Final Determination issued November 23,
                                  1990
----------------------------------------------------------------------------------------------------------------
Big River......................  Initiated August 24, 1988..................       1       RI   New England
Water Supply Impoundment         Final Determination issued March 1, 1990
----------------------------------------------------------------------------------------------------------------
Ware Creek.....................  Initiated August 4, 1988...................       3       VA   Norfolk
Water Supply Impoundment         Final Determination issued July 10, 1989
----------------------------------------------------------------------------------------------------------------
Lake Alma......................  Initiated June 8, 1988.....................       4       GA   Savannah
Dam and Recreational             Final Determination issued December 16,
 lmpoundment                      1988
----------------------------------------------------------------------------------------------------------------
Henry Rem Estates..............  Initiated April 22, 1987...................       4       FL   Jacksonville
Agricultural Conversion--        Final Determination issued June 15, 1988
 Rockplowing
----------------------------------------------------------------------------------------------------------------
Russo Development Corps........  Initiated May 26, 1987.....................       2       NJ   New York
Warehouse Development (After-    Final Determination issued March 21, 1988
 the-fact permit)
----------------------------------------------------------------------------------------------------------------
Attleboro Mall.................  Initiated July 23, 1985....................       1       MA   New England
Shopping Mall                    Final Determination issued May 13, 1986
----------------------------------------------------------------------------------------------------------------
Bayou Aux Carpes...............  Initiated December 17, 1984................       6       LA   New Orleans
Flood Control Project            Final Determination issued October 16, 1985
----------------------------------------------------------------------------------------------------------------
Jack Maybank Site..............  Initiated April 15, 1984...................       4        SC  Charleston
Duck Hunting/Aquaculture         Final Determination issued April 5, 1985
 Impoundment
----------------------------------------------------------------------------------------------------------------
Norden Co......................  Initiated September 30, 1983...............       4       AL   Mobile
Waste Storage/Recycling Plant    Final Determination issued June 15, 1984
----------------------------------------------------------------------------------------------------------------
North Miami....................   Initiated June 25, 1980...................       4       FL   Jacksonville
Landfill/Municipal Recreational  Final Determination issued January 19, 1981
 Facility
----------------------------------------------------------------------------------------------------------------

    For more information please visit: http://water.epa.gov/lawsregs/
guidance/cwa/dredgdis/404c_index.cfm.

    Senator Blunt. I think we are going to have a second round 
of questions later, chairman? Thank you.
    Senator Reed. Thank you, Senator Blunt.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you and 
the other members of the subcommittee in welcoming our 
distinguished witnesses to the hearing today.

                             GULF OF MEXICO

    It occurs to me that one of the most riveting events that 
threaten the environment of the Gulf of Mexico has been the oil 
experience and the blowout down there of a well. And the effort 
to which we have gone to marshal our resources and to figure 
out exactly how we protect ourselves from adverse environmental 
consequences from that experience.
    And I just wonder, what is your observation about whether 
or not what we have been doing is working? Are we restoring the 
good environmental health to the Gulf of Mexico and related 
areas like the Mississippi River, the lower parts of the river?
    Mr. Perciasepe. I appreciate that question and how 
important that is. Obviously, I think we all remember that, 
those 3 months of our lives in not the most favorable ways, but 
I am very optimistic.
    We put a taskforce together after the event. There was a 
separate review commission that had recommendations, but the 
President put together a taskforce which Lisa Jackson chaired 
that brought together the States around the gulf.
    And the States and the different Federal agencies all 
agreed to a general approach in consensus, which I was 
extremely pleased to see, which gave me a lot of optimism that 
when funding became available, either through congressional 
appropriations, or coordinating the funding we all get with our 
existing programs, or any penalties or payments from any 
responsible party would get put to a good plan.
    So I am confident that as those settlements occur and as we 
look at coordinating our existing funds, that we will be 
putting it to a plan that is pretty well coordinated because we 
have that work together. And obviously, your State was involved 
as well, and we think that that plan is actually pretty solid. 
It is the first time, to my knowledge, all the gulf States and 
the Federal Government came together on what needed to be done.
    Senator Cochran. Well, the Congress certainly acted quickly 
in response to the request from the administration to provide 
earmarked funds, excuse the expression, oh, my goodness.
    But that is part of our job to designate Federal funds to 
help deal with emergencies that threaten the environmental 
safety and security of our country, and particularly the 
economic investment that we have in the Gulf of Mexico, the 
fisheries. And the efforts we make to keep the Mississippi 
River from destroying all of the rich farmland that is 
important to our State's economy and many others as well. So we 
want to be sure we bring a balance to these competing 
challenges sometimes.
    And I would just close by asking you if you are satisfied 
that the administration, and the Congress, are constructively 
working together to help ensure that these goals are reached?
    Mr. Perciasepe. Senator, actually I am more confident than 
I would have imagined, to be honest with you, given the damage 
the nature of that event.
    I think we see an industry response, which is starting to 
get some marks in their preparedness. We went through a painful 
part of getting preparedness to be ready in case it ever 
happens again. But on the other side of repairing the damage, 
and even going further to the extent we can to restoring--
because as you know, some of the ecosystems there were not in 
the best shape even before the event.
    So I think we have a once in a lifetime opportunity here, 
and the fact that the Congress and the administration have 
worked together as well as they have, I think, bodes very well 
for success, and the fact that the States are onboard with the 
basic plan.
    So it won't be without challenges, but I think the 
foundation is there for success.
    Senator Cochran. But your assessment is that it is safe to 
swim in the Gulf of Mexico again, isn't it?
    Mr. Perciasepe. Well, I believe people are doing that every 
day.
    Senator Cochran. Thank you.
    Senator Reed. Thank you, Senator Cochran.
    Given our procedures, in order of arrival and going back 
and forth, Senator Begich.

                    BRISTOL BAY WATERSHED ASSESSMENT

    Senator Begich. Thank you very much, Mr. Chairman.
    I just want to reconfirm. I know my colleague asked this 
question when I was not here. I just want to hear it again for 
my own sake here on the Bristol Bay Watershed assessment issue.
    You indicated that you do have enough money to finish the 
assessment, and that you will get it out and soon; ``soon'' 
defined as potentially in fill-in-the-blank. That is your cue.
    Mr. Perciasepe. Fill in the blank. Well, what I said to--I 
said ``soon'' but that did not----
    Senator Begich. That does not work.
    Mr. Perciasepe. I want the record to show ``soon'' doesn't 
work.
    But I wanted you to know, and I mentioned this to Senator 
Murkowski that we completely understand that we need to get it 
out in time for people to be able to look at it and participate 
in the public process. This is the revised analysis after we 
got the comments from the peer reviewers.
    Senator Begich. Correct.
    Mr. Perciasepe. Which is one of the reasons, as I 
mentioned, that we have been a little bit floating on how much 
we are spending on this because we needed to pull together the 
resources in the Agency to make sure we responded, and 
modified, and improved the assessment based on the comment we 
got. So we will also shortly be in a position to be able to 
layout some of those funding components of it.
    But we are working to get this out so that a substantial 
part of the month of May is available for people to respond to 
it before the fishing season really kicks in.
    Senator Begich. And then let me understand also the timing, 
then. Let's assume you hit that target. It comes out in May, 
then the public can review and comment on it.
    Is there a time limitation or is it an open-ended? Help me 
understand that.
    Mr. Perciasepe. Well, we certainly want it to be the time 
period that the public will have the most ability to do it. The 
peer reviewers will also be reviewing it at the same time. I 
cannot--I don't know right now what the time limit would be, 
but we have some flexibility there, and we will see how it goes 
once we have people commenting on it in May.
    Senator Begich. And then, once they comment on it, what is 
next?
    Mr. Perciasepe. Well, we wait to get the--in addition to 
public comment, we are going to wait to get the science review 
of it and that we put the same peer review panel we had the 
last time. We were able to get every member of that panel to 
agree to do it again so that we have good continuity on the 
scientific review.
    We wait to see what comments we get from that peer review, 
and may, depending on that view, have to make some additional 
modifications, but I think I can't predict because I don't know 
what they are going to say. And I think anything we do here 
because while this is not a regulatory action this study.
    Senator Begich. Right.
    Mr. Perciasepe. This is something that will inform 
everybody. We want to make sure that it has the best scientific 
foundation in it. So that is going to be our number one 
priority as we go through this next peer review process.
    Senator Begich. And let me just push you one more point on 
this. And that is, so you have the public commentary and other 
review commentary. You review that, then at some point, you 
will have a final assessment document.
    Mr. Perciasepe. Yes, that would be available for whatever 
processes go on after that.

              BRISTOL BAY WATERSHED ASSESSMENT COMPLETION

    Senator Begich. Okay. Can you give me--and I know it is 
hard without knowing some of the comments that come in, how 
technical they might be, or how simplistic they might be, 
whatever the range is--can you give an understanding to me 
that, ``By this range of dates, we think we will be completed 
with the assessment,'' with some caveats. I am going to give 
you some hold harmless here----
    Mr. Perciasepe. Okay.
    Senator Begich [continuing]. And that is recognize there 
may be some peer review issues or other things that are more 
technical and that may require a little more work, because I 
hear what you are saying right now, but then it goes back into 
your guys' lap, and then what happens?
    Mr. Perciasepe. Well----
    Senator Begich. I mean, is it a fall completion? Is it a 
summer?
    Mr. Perciasepe. You know, if I think the work is--if the 
work we have to do following this next round of comment is 
pretty straightforward and ready for us to do, I can see us 
getting it done by the fall.
    Senator Begich. By the fall. ``Fall'' meaning Alaska fall 
or District of Columbia fall? Let's use the solar.
    Mr. Perciasepe. Okay.
    Senator Begich. The vernal----
    Mr. Perciasepe. The autumnal equinox. Okay, which I think 
is the same in Alaska.
    Senator Begich. Okay. I am just checking. I appreciate it. 
It is important as you get a sense from both.
    Mr. Perciasepe. We know that----
    Senator Begich. I apologize. I was not here earlier to hear 
more explanation.
    Mr. Perciasepe. It should not be, to the two Senators from 
Alaska, it should not be--you should not think we don't know 
how important it is that--keep this from not lingering forever, 
but at the same time, it is equally important that we do the 
best job we can.
    Senator Begich. Get the science right.
    Mr. Perciasepe. So the science has to be right because we 
know that this is going to inform all the going forward work.
    Senator Begich. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Begich.
    Senator Johanns, please.

                      AERIAL FIGHTS OVER FEEDLOTS

    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Perciasepe, more than a year ago now, I was in my 
Senate office, and I had a group of family cattle feeders, 
ranchers that I was sitting down with. And in the midst of the 
conversation, one of them said to me, ``Mike, what do you know 
about aerial flights by EPA over our feedlot?'' There was an 
uncomfortable silence because I did not know anything about it.
    I certainly could not recall that EPA had made me aware of 
that. I could not remember my then colleague, Ben Nelson, or 
any of my House colleagues, had made me aware of that.
    So I wrote a letter to Lisa Jackson. The essence of that 
letter was, number one, I am interested in what you are doing 
in Nebraska. And number two, is this a national program and are 
you doing aerial surveillance in other parts of the country?
    For whatever reason, she felt that my letter was not 
important enough to warrant a response from her. It was bounced 
to the Regional Administrator, whom I met with. He seems like a 
nice enough guy, but I do not think he speaks for the entire 
Agency.
    So let me ask--oh, and one other point I wanted to add to 
this. In the, I believe it was the farm bill discussion some 
months ago, I put in an amendment that basically would have 
said, ``Hey, you cannot use any funding we give you for these 
kinds of aerial surveillance missions.'' And I got 56 votes on 
that; pretty bipartisan, and I am guessing we could have gotten 
over 60, but there was a lot of pressure when we got that many 
votes to quit voting yes on this thing.
    So let me just ask you today a very simple question. Are 
you doing aerial flights over whatever, feedlots, pork 
production in Nebraska or, for that matter, in any other State 
in the United States currently, or do you have plans to do that 
in the future?
    Mr. Perciasepe. We are not doing anything right now. We are 
in the process for the springtime here of looking at what kind 
of a notification system or other kinds of information we would 
make available before we actually did any of these flights.
    The flights are quite simple. They are fixed wing aircraft 
like a Piper Cub, or a Cessna, or something like that and 
basically designed to help find priority areas to look at for 
people who would be on the ground in the field.
    We don't do any enforcement work, or compliance work, or 
anything based on this reconnaissance. It's simply to help 
guide where we would send actual infield inspectors who would 
actually interact with the landowner.
    Senator Johanns. But it can lead to compliance, and 
enforcement, and fines, and penalties.
    Mr. Perciasepe. Depending on what they see on the ground 
when they get there, but it won't be from, only from what 
happens in the air. The air just simply helps figure out where 
the folks on the ground who talk directly to the landowners go.
    But we are--we have done this in different parts of the 
country, not just in Nebraska and we are evaluating how we 
would--how do we go about our annual notification processes on 
this.
    Senator Johanns. Mr. Perciasepe, I have got two 
observations about this.
    Observation number one is this: why is it so hard for EPA 
to just write me a letter, write my colleagues a letter, and 
say, ``This is what we're doing''? Why is that so difficult 
that my letter would be ignored for a year? I mean, we are 
literally coming up on the first anniversary.
    The second observation I've got is this, as you know, I 
have been around the block a few times. I was the Governor of 
my State. I had a Nebraska Department of Environmental Quality. 
I was the Secretary of Agriculture. I worked with EPA on a 
regular basis. I think I am a pretty well known person out 
here. Why, I can't imagine why you would do this?
    I have always preached that we should work with people. You 
know, if you've got a bad actor, bring the hammer down; no-
brainer. But why would you just go out and fly feedlots? I 
mean, that's just, to me and I think to the average American 
out there, this sounds kind of wacky. It kind of sounds like 
this is a Federal Agency that is completely and totally out of 
control.
    And when I can't get answers to my questions, it feeds into 
that. People have this notion that the EPA is kind of a rogue 
group out there, doing whatever they want to do because the 
United States Senator can't get a simple letter answered. Do 
you see what I'm saying?
    Mr. Perciasepe. Well, when I get back to the office today, 
I will find out what is going on with the answer to your letter 
and make sure you get one.
    But I do have to respectfully disagree with the rogue 
agency characterization. We are trying to actually do exactly 
what you just said: find bad actors in the most efficient way 
by trying to narrow where we would send people to go talk to 
the landowner. That's all we are doing with the aerial flights.
    Senator Johanns. But this is so indiscriminate. When you 
are out there just flying eastern Nebraska, this is so 
indiscriminate. You are flying at low altitudes. You are flying 
over law-abiding people who are trying to do everything they 
can to honor your rules and regulations. And you are not coming 
down on the bad actors. You are checking on everybody and it 
feels terrible.
    It feels like there is a Federal agency out there spying on 
American citizens, and no matter how much I try to convince 
people otherwise or you do, it is still going to feel that way, 
especially when you are lacking so much in transparency when 
you don't respond to letters. When I find I have to show up at 
a hearing and get on a subcommittee so I can ask you question 
as to what is going on because my letters are ignored.
    Mr. Perciasepe. I am concerned about the feelings that you 
are relating in terms of how people feel about it. That's, I 
think, an important thing for us to take into account in terms 
of how we develop a communications effort here. So I will make 
sure that we will get information to you and take these 
concerns back to whatever we are doing.
    [The information follows:]

    On behalf of Administrator Jackson, EPA's Region VII Administrator, 
Karl Brooks, sent a letter to the Honorable Mike Johanns, dated June 
11, 2012, in response to Senator Johanns's letter dated May 29, 2012. 
Enclosed with the letter were more detailed responses to the questions 
in the Nebraska delegation's May 29 letter.

    Mr. Perciasepe. But I want to assure you, the idea here is 
not to spy on law-abiding citizens. We want to make sure that 
like everyone else, they want to make sure that their law--law 
abiding is on a level playing field. And that is, this is a 
very efficient way for us to narrow where we go to on the 
ground to talk to landowners about what they are doing. If they 
are doing everything right, they are not going to--there's 
going to be no consequences from this at all.
    So I understand the perception issue that you are bringing 
up. It is helpful for me to hear the intensity of it and I will 
bring that back.
    Senator Johanns. I am out of time, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Johanns.
    Let me just make one point is that letters from my 
colleagues should be responded to promptly, particularly 
members of the subcommittee who have a detailed interest and 
knowledge of the issues before the Agency. I would hope that 
that would be the norm and that you would take that message 
back too.
    Mr. Perciasepe. Thank you very much.

                         STATE REVOLVING FUNDS

    Senator Reed. I spent my opening comments, I think 
rightfully, raising serious questions about the SRF, but let me 
point to one area where you are providing some, I think, 
necessary relief and that is in the State Categorical Grants 
program.
    My home State, I think, is not a lot different than other 
States that our DEM, our department of environmental 
management, has shrunk from 500 to 390. That is 110 jobs in a 
tough economy. But more than that, it strains the capacity to 
do many of the things that you have delegated the Agency to do.
    Can you comment on the fiscal situation throughout the 
States that, I believe, is one of the motivations for the 
increased funding of State categorical grants? And further, 
perhaps, indicate if sequestration takes place, what further 
impact that could have.
    Mr. Perciasepe. Yes, it is one of the prime motivators of 
that, I point out in addition of the request to the Congress to 
increase those grants. And it is, I have to admit, it is a 
modest amount, but one of the things that I have been working 
on with the environmental commissioners in my double job here, 
my other job is the Deputy Administrator EPA, I have been 
spending a lot of time directly with State environmental 
commissioners through their organization, the Environmental 
Council of the States, which all the States are a member of.
    And we have been working on how to improve--given the fact 
that all of us are constrained and we have the laws to 
implement together, how do we look at this as a holistic team, 
so to speak? You know, using that enterprise word again, I say 
the environmental protection enterprise of the United States is 
really the tribes, the States, and EPA together.
    So how do we make that partnership work? And we are very 
keen on improving their, by a relatively small amount, their 
financial situation, but also on how we share the work.
    So when I mentioned E-Enterprise earlier, a number of the 
States, due to the necessity that you've pointed out have 
turned to using a more electronic transactional process with 
the world. Similar like what any of us might do with an 
airline. You know, how do we get our tickets? How do we book a 
hotel room these days? Many of us, and I don't want to speak 
for everyone, but many of us will just go online and do it.
    Our transaction with our banks are getting more online and 
the security systems that have been put in place, you know, 
we've never translated them over to, you know, in how you can 
do that in the public forum.
    So some States have started to look into how to do this. 
Some of them have convinced their general assemblies to provide 
capital funds. You know, the Federal Government doesn't have a 
capital and operating budget. I'm used to that in my State and 
local experience. But the idea is you can capitalize some of 
these investments over time because they pay for themselves in 
efficiency.
    So just a neighboring State of yours, Connecticut, I think, 
is one of the ones that has been doing that and we have been 
working closely with them to see how they're going about doing 
that.
    So we are not looking just at increasing the funds, which 
is very important. But we are looking at how we work together 
and share work. Can we change that dynamic? Can we improve 
priority setting between the States and EPA so that we are not 
chasing everything all the time? And can we come to a point 
where the information flow is not redundant?
    So if I am a holder of a permit, I don't have to send my 
stuff to the State and send my stuff to different parts of the 
State, different parts of EPA. They can go to one place where 
they do their transaction. So much of the world has achieved 
this and many States are thinking this is a way to deal with 
some of the constraints that they have.
    And the Congress, last session, approved the E-Manifest 
System for tracking the transport of hazardous waste. I mean, 
we were still using pink, blue, and yellow carbon copy paper, 
or actually we still are, because we are required by law to be 
using paper copies. And so all the hazardous waste that is 
moving around the country has got paper following it around; 
millions and millions of pieces of paper at great expense.
    And so if you have ever purchased anything from virtually 
any online system, you could actually, and if you use FedEx 
to--I am not advertising here. I want to show that----
    Senator Reed. UPS.
    Mr. Perciasepe [continuing]. As an example of many. L.L. 
Bean does the same thing. So you can track where your package 
is down to which post office it's in.
    In fact, with some company, I should stop naming them, but 
I recently ordered a vest from, I got an email that they had 
put the package in my backyard. So, these systems exist, but we 
don't have them for tracking hazardous waste.
    So you passed that legislation last year and that's part of 
the kind of concept that we're talking about here. Get to the 
point where we're using these modern technologies.
    I go on a little about that, because I feel pretty 
passionately about the relatively modest investment we're 
asking by moving funds around, because this will let us link up 
with the States to be more efficient. And then the modest 
increase in the State funding will also help.
    I should point out that the $60 million your staffs have 
identified and that we've identified to you, also include some 
startup design money for some States who don't have, may not 
have the ability to get started.
    So I'm sorry for that long answer, but this is one of my 
highest priorities, figuring out how we improve our working 
relationships with States. The money is a piece of that, but 
not the only one.
    Senator Reed. Thank you very much.
    Let me recognize Senator Murkowski.

                            PM<INF>2.5</INF>

    Senator Murkowski. I would like to pick up a subject that 
we have had a lot of discussion on here in this Appropriations 
subcommittee with our colleagues from the EPA, and that is the 
situation in the community of Fairbanks, Alaska with the 
particulate matter, the tightened standards for small, 
particular matter the PM<INF>2.5</INF>.
    I know that it is a subject that you are prepared on 
because we talk about it all the time. The problem for the 
people of Fairbanks is we have not been able to gain any 
flexibility from the EPA on this issue, and it becomes more and 
more serious.
    This is the second largest community in the State of 
Alaska. It is probably the coldest city in America for its 
size. They are trying to meet these new standards. They are 
working to provide some incentives for the residents to change 
out their older furnaces and their older stoves and boilers for 
more efficient pieces of equipment.
    We have asked the EPA to work with us in terms of timeline. 
We have asked whether there might be grants available for doing 
the change out.
    Right now, what the Fairbanks North Star Borough is 
proposing is a research program where they are looking to 
define whether or not emission reductions can be achieved by 
doing a switch out and effectively moving to more efficient 
means of heating their homes. When it is 40-50 below zero in 
Fairbanks, not heating your home is not an option.
    And unfortunately, their options are really very limited. 
It is either coal, it is wood, it is home heating fuel. We do 
not have natural gas into the community. We are trying to get 
there. And we have asked EPA for leeway on this.
    So the question to you this morning is whether or not you 
have identified any areas where there might be some level of 
assistance that the Agency can provide with the--it is about a 
$4.5 million cost to the study, or the funding that we have 
asked for to help the residents move from one technology to 
another? Whether there is anything that can be done to provide 
for this.
    We are now trying a firewood exchange program where 
homeowners are swapping out wet wood for dry wood. You are 
talking about technologies here with the chairman that leads us 
to greater efficiencies.
    We are going back into the Stone Age practically and 
telling the people of Fairbanks, ``Well, the way that you're 
going to deal with your emissions is you're not going to burn 
wet wood. You're going to burn dry wood.'' Well, the fact of 
the matter is we are burning wood to keep warm.
    So if there are no areas given the tight budget that we are 
dealing with, you can help us with in terms of assistance.
    Is the Agency looking at an extension to give the community 
more time to meet the new standards before this penalty phase 
begins in 2016? The community is working aggressively on 
alternate plans, whether it is trucking natural gas from the 
North Slope. We are looking at alternatives to bring gas up 
from the South. But we all know that you cannot flip a switch 
and make it happen between now and then. Assessing penalties on 
top of a community that is already socked with high, high, 
high, exorbitantly high energy costs is really not the way to 
go.
    So what can you offer the residents of Fairbanks in terms 
of some level of assurance that you are willing to work with 
us?
    Mr. Perciasepe. Well, I think that's the key right there is 
to keep working on this together. I don't know that we have the 
right solution yet, so I can and will offer to do the continued 
effort to try to see if we can get through this period.
    I think, obviously, you've mentioned a couple of ideas in 
your comments there in the long haul about natural gas and 
other things like that. And I'm sure if Fairbanks wants to get 
to that point.
    I am not inexperienced with this issue. I heated my own 
home in upstate New York with wood for 5 years with my father 
and that was my job was to cut the trees. And I know that they 
are wet most of the time in the winter.
    So I am painfully familiar with this particular issue and 
want to offer that we'll continue working on it with you and 
with the State of Alaska to see if we can come to the right 
place.
    Senator Murkowski. Well, Mr. Perciasepe, I appreciate that. 
It doesn't necessarily comfort me because I have received the 
same assurances from Administrator Jackson. The people of 
Fairbanks, it is not a short winter up there. It is a long, 
cold, dark, winter and, again, when you don't have many 
alternatives, you are looking for some assistance.
    I will ask then, the same thing I asked the Administrator. 
Sit down with us and let's go through some of these areas where 
we don't feel that the Agency is working with the residents. 
Whether it is the issue that I raised with Fairbanks in 
PM<INF>2.5</INF> or what I raised in my opening statement with 
the solid waste incinerator rule, and the impact that it has on 
a small husband-wife veterinary clinic in Soldotna.
    It seems to me in that particular instance, and I will let 
you address that, but it seems to me that there should be a way 
to address this administratively rather than having to assess 
this veterinary clinic $50,000 to do an annual test to make 
sure that they meet the compliance.
    So I would like your assurance that you will work with us 
on issues that may not be that big in terms of your Agency's 
perspective, but for this community and for this small 
business, it is everything because it is this regulation that 
could shut this business down.
    Mr. Perciasepe. I do know that we have discussions going 
on, on that particular rule that you are expressing the 
concerns that the vet has.
    I believe some of the folks from Alaska are visiting our 
North Carolina office this week to talk through some of these 
issues, and later, in a couple more weeks in May, we're going 
to get a bunch of other people down.
    So I will make sure that the people at EPA who are doing 
that work and that group of incinerator operators and some of 
the others that are involved from Alaska, know that you and I 
have talked about this. We would be able to talk about it a 
little bit more perhaps tomorrow.
    But I want to make sure that you know that we have that 
little process going on. That we are going to be meeting with 
those folks, and we are going to be looking under every stone 
to see how we can build a path forward there, so.
    Senator Murkowski. Well, maybe we can look at our list 
tomorrow then.
    Mr. Perciasepe. Yeah. I know that both of these answers are 
more process than absolute answers, but part of our work, I 
think, together is to get a process to make sure that we get to 
the answer.
    Senator Murkowski. Mr. Chairman.
    Senator Reed. Thank you. Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I just have a couple of quick questions. One is on the 
general issue of resource development within Alaska, maybe 
mining, oil and gas, and so forth.

                    SEQUESTER AND PERMITTING PROCESS

    But regarding the sequester and also your budget into the 
future, can you give me a feeling on the impacts that you would 
see in regards to the permitting process as well as how long it 
takes with regards to these two types of impacts you have it on 
the budget? And especially around these issues, as you know, 
our seasons are very unique. They are not year round, in some 
cases of how the developments have to be set up and proposed.
    Mr. Perciasepe. Well, I think the--as a general matter, the 
way the sequestration happened in this particular budget year 
is it was spread out, you know, around. There was very little 
ability and we can--I'm not trying to say one thing or another 
about that, to say, ``Well, we'll do much less of that and only 
a little bit of this.''
    Senator Begich. Right. You have the flexibility----
    Mr. Perciasepe. Oh, right.
    Senator Begich [continuing]. By division within the Agency 
essentially.
    Mr. Perciasepe. So what we--what we've done is tried to 
mitigate that as much as possible, but the inevitable effect of 
everything being a little bit less is that there will be some 
delays or some choices that have to be made a little bit more 
than they were without it.
    So I would expect that there will be fewer inspections; 
that some permits will take longer. This is the kind of stuff 
that--and the reviews, and the processing of grants, and things 
of that nature are all going to take a little bit longer. If 
you want to cumulatively say they will all take 5 percent 
longer, you know, that's one way to think about it.
    On the other side of the coin, when you don't have enough 
flexibility between the personnel budgets and the non-personnel 
budgets, you end up with a situation where some of the people 
are going to be not working full time. So we have a--well, 
they'll be full time employees, but they won't hit every day 
because we have to furlough some of them.
    And at EPA, we've tried to minimize that. We've got it less 
than 5 percent because we were able to do some things where 
there was some flexibility. So we're now no more than 10 days 
of all our employees will be furloughed.
    But I think that that is--we might be able to reduce that a 
little bit more. We're going to look in June one more time to 
see if were able to make any savings. But I think the simple 
answer is there'll be some slowing across the board.
    But on issues in Alaska, I personally participate with 
David Hayes, the Deputy Secretary of the Interior, who I know 
you guys are all familiar with particularly in Alaska, who's 
chairing our interagency group, and we meet frequently. We have 
phone calls frequently to make sure we're keeping our eye on 
the ball with the critical and often difficult issues in 
Alaska----
    Senator Begich. Right, the timetables, the seasons, and so 
forth, right?
    Mr. Perciasepe. Yes.
    Senator Begich. Well, I think that--I know Senator Blunt 
has a piece of legislation that I signed on to regards to 
flexibility with essential employees. So I don't know how that 
plays with EPA, but I know it's an important aspect that you 
have as much flexibility as possible. Because those permits, if 
they're delayed by a month or two, it could cause, as you know, 
a whole season missed in development. But I thank you for that 
comment.
    But also I appreciate your end comment there that you're 
working with Under Secretary Hayes regarding the coordinating 
effort. That, to me, has been a huge plus for us in Alaska and 
it's had some ability to move some things that may be not as 
fast in the past because of different agencies having debate 
and so forth. So I appreciate that.
    Mr. Perciasepe. I agree that that has enabled us to resolve 
issues more quickly and, you know, between all the different 
agencies, and it's been a very helpful process.
    Senator Begich. Very good. Let me, if I can add one other 
thing, and I was listening to your comments on kind of the E-
Government component of what you're trying to do. And it 
actually surprised me a little bit, while nothing surprises me 
around here anymore, but that a law requires you to keep the 
paper, and you had to get the law changed in order for you to 
come into the 21st century.

                              E-GOVERNMENT

    I would ask you this, and I would be very interested in 
working with you on this. Sometimes I think legislative bodies 
have a bad habit of wanting to legislate down to what pencil 
and size of pencil you buy, and the grade, and everything. And 
I want to, I guess, not just you, but other agencies, give you 
the flexibility especially in order to get into the E-
Government ability because without that, you are way behind in 
a lot of areas.
    So I would be very interested in: are there things within 
the legislative arena that we have hamstrung you in the ability 
to move into this 21st century technology? You don't have to 
tell me now, but if you could prepare something that says, you 
know, ``Here's some laws that prevent us from going to 
electronic because we have these three things that are in the 
law that requires to have things in triplicate, and we have to 
have them in paper, and we have to have certain files.''
    I would be very interested in that because part of the 
budget process, that's what we're here to do, is find ways to 
make you more efficient. But if we have created some 
legislation that requires you to--you know, like I always have 
this argument. This black suitcase or briefcase I carry around, 
my view is always if it's more than what fits in there, I've 
got too much to file and I honestly believe that. It is what I 
carry. That's my file. That's my information. Anything more 
than that is way too much. So when I'm not using technology 
properly.
    So I would be very interested in any of that kind of issue 
that you could bring forward to us.
    Mr. Perciasepe. We will follow up on that. I know it's not 
just the legislation. It's also some of the regulations that 
we've done in the past. Many of these laws were passed 20 years 
ago before people visualized the kind of world we're currently 
in.
    Senator Begich. Right.
    Mr. Perciasepe. I don't think it was anybody's fault, but 
they wanted to make sure that they could keep track of these 
things, and so did some of the regulations EPA and other 
agencies did back then.
    So it requires a combination of looking to make sure there 
are no legislative barriers, and I think we've got one of the 
big ones, because I think we'll save over $100 million a year 
for the regulated industry when we get that implemented.
    Senator Begich. That's great.
    Mr. Perciasepe. But I think it's going to be a joint 
effort, I think, between the Congress and the executive branch 
to look at how we've constructed the systems we have, you know, 
maybe even from a lean analysis look.
    Senator Begich. Okay.
    Mr. Perciasepe. To find those--where those sore spots would 
be. So I will look at that.
    Senator Begich. We would be very happy. I did a lot of that 
when I was mayor of Anchorage where we really, you know, 
implemented a lot of E-Government and it changed the whole way 
we did business. And the customer's much happier because the 
timetable has changed in a positive way. So I'd be very anxious 
to work with you. Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]

    Information on Laws That Prevent the EPA From Going Electronic 
                  (Electronic Filing) in Certain Cases

    Many of EPA's statutes were enacted in the 1970s and 1980s when 
electronic communications were much less common and submissions of all 
types were typically done on paper. EPA has made great progress in 
moving our programs toward more efficient and less wasteful electronic 
systems. For example, the vast majority of Toxic Release Inventory 
reporting is now done electronically. The Agency is currently engaged 
in a number of rulemakings to increase electronic reporting, which will 
continue to move the Agency away from systems that rely on paper 
submissions.

    Senator Reed. Senator Blunt.
    Senator Blunt. Thanks, Mr. Chairman.

                           NEW SOURCE REVIEW

    I want to get to New Source Review in a minute. I did not 
intend to talk about this, but Senator Johanns's questions were 
particularly--the answers were particularly troubling to me.
    Where do you think you have the authority to fly over 
people's property and see if they are doing anything wrong?
    Mr. Perciasepe. I'm not really prepared to do some kind of 
legal analysis here, Senator, but I would say that that there--
the general authority that EPA has to inspect, to implement the 
laws that the Congress has passed, and we're also trying to be 
efficient. We're trying to only, you know, use our scarce 
resources in places where there appears to be some problem. And 
I don't know why that concept is difficult. I think we can 
understand that concept.
    I think the issue which I think the Senator made it more 
clear to me than I've heard before is that people who feel like 
they are--they are not a problem, why are they having a, you 
know, something fly over their house. And so I mean I think I 
will----
    Senator Blunt. I would think a guy from upstate New York 
would understand that if you thought about it for very long.
    Mr. Perciasepe. Dairy, I lived in the dairy country.
    Senator Blunt. Exactly. My mom and dad were dairy farmers. 
I understand that whole concept of the Government and you.
    But now, you can't just walk onto somebody's property, can 
you, because you think they might be doing something wrong or 
can you?
    Mr. Perciasepe. I don't know the answer to that.
    Senator Blunt. And you said it's not like you were spying 
on people.
    What term would you use?
    Mr. Perciasepe. We were looking for where there may be 
animals and their waste in the water. So we're not looking at 
people at all.
    Senator Blunt. So you're spying on animals.
    Mr. Perciasepe. Well, we're looking to see where we would 
send inspectors to see if there was a problem of water 
pollution. So I don't know that animals are what we're spying 
on. We're looking at the conditions that could be creating 
water quality violations.
    Senator Blunt. You know, I work for almost 6 million 
people. I am trying to figure out how many more than 5 million 
of them would be concerned by this. But I think at least 5 
million of them would say, ``I really don't like the sense of 
that.'' That the EPA can do things that, I don't know that law 
enforcement without any reason can just fly around. Maybe they 
can.
    It is troublesome to me and I do not want to use all my 
time on this, but I think you should say, if I was going to 
sequester something at the EPA, I think I would sequester this 
surveillance flying around at the top of the list. I wouldn't 
want to be trying to justify that if I couldn't get a permit 
issued for somebody to do something that creates private sector 
jobs, for instance. That would be my sense.
    I saw a report, just came out, from George Washington 
University that the regulatory rules from the Federal 
Government in 2012, by their own estimate, exceeded the cost of 
the entire first term of the two preceding Presidents. That the 
regulatory rules in 2012, by the administration's estimate, 
exceeded the cost of the first terms of President Bush and 
President Clinton.
    And one of those rules, this New Source Review standard. It 
looks like--I don't know how you could possibly build a coal 
plant. Our State, I think we are number six in the country. We 
are 82 percent-or-so dependent on coal. I guess you can't build 
a plant without carbon capture storage.
    Do you believe that that is commercially feasible today, 
carbon capture storage?
    Mr. Perciasepe. Let me make sure I know which rule you're 
talking about.

                    NEW SOURCE PERFORMANCE STANDARDS

    Senator Blunt. I'm talking about the New Source Performance 
Standards.
    Mr. Perciasepe. Standards for electric generating.
    Senator Blunt. Right. Exactly.
    Mr. Perciasepe. Well, I was actually co-chair with the 
Department of Energy on the carbon capture and storage report 
that we did for the President.
    Senator Blunt. Oh, good. Well, you are a good guy to ask 
this question.
    Mr. Perciasepe. The simple answer is that all the pieces of 
that technology exist. People use it now. People use it now for 
enhanced oil recovery projects and things of that nature. But 
having it altogether in a package has not been constructed 
except in demonstration projects.
    We received a lot of comments on that proposal, I think 2.7 
million comments on that proposal, and that's why we're taking 
our time to look at that, and we haven't finalized that rule 
yet. We have to continue to look at those comments and figure 
out some of the issues that you're bringing up.
    But one of the things we did in that proposal is provide a 
long averaging period, like 30 years, so taking into account 
the potential of that type of evolution of technology.
    However, we did get a lot of comment on that as well, 
Senator, and I think that's what, you know, that's among many 
things that we're looking at before we would finalize that.
    Senator Blunt. Well, it--one of the things I am sure you 
have been asked to study is just the overall question of this 
rule that, if the rule is promulgated it absolutely prohibits 
future activity in this area?
    And if carbon capture is not commercially realistic, what 
you are really saying if you move forward with this rule that 
you have had lots of other people comment on already, is can't 
build a coal-fired plant in the country.
    Mr. Perciasepe. I wouldn't make that complete conclusion 
because of the averaging concept that we put in there. What we 
have to determine is whether or not that is a feasible approach 
to dealing with the diversity of fuels that are out there.
    So I recognize that some people view it the way you've 
recognized it and we certainly got tons of comment on that. So 
we have to look at the idea that if the technology's not 
available now when would it be available and how do you build 
that into the future? We have to continue to work on that.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Blunt.
    Let me recognize Senator Murkowski for any comments she has 
in conclusion.
    Senator Murkowski. Thank you, Mr. Chairman.
    And Mr. Perciasepe, thank you for being here this morning, 
trying to work through some of our questions.
    I do have a host of other questions that I will be 
submitting for the record, everything from Keystone Pipeline, 
hydraulic fracturing, forest roads, sulfur content, greenhouse 
gas, powerplant rulemaking, commercial fishing sector. I think 
I could probably spend the rest of the afternoon with you, but 
unfortunately we do not have the time allowed.
    But one thing that I would like to just leave with you, not 
necessarily in a question format for you this morning, but just 
something that I would like you and those in the Agency to 
consider.

                          COST BENEFIT ANALYSIS

    We talk a lot around here about cost benefit analysis at 
times of declining budget. It is important. We are making sure 
that we get good value for the dollar. And the President has 
asked, he says we want to, again, make sure that we are doing 
things in the right areas.
    And it was just, well, it was this month that the U.S. 
Chamber of Commerce came out with a study regarding the impacts 
of EPA regulations on employment within the United States. And 
in that study, they found that the EPA is using what they 
consider to be some overly optimistic forecasts that overstate 
the benefits of regulation and understates their cost.
    And they go through their assessment in terms of how they 
reached this conclusion. They went on further to provide that 
the correct approach for assessment of the overall impacts of 
rules with large economy-wide costs is to calculate the impact 
of regulation compliance costs through a whole economy model.
    And it is something that, I think, many of us are talking 
about is how do we accurately reflect the costs and the 
benefits?
    There was an opinion piece recently in The Hill, which 
referred to this. This is a gentleman, Jeff Rosen, who is the 
former general counsel over at the Office of Management and 
Budget (OMB). And he cites a rule that was proposed by the EPA 
back in 2011 that relates to equipment that powerplants and 
manufacturing facilities use to draw in water to prevent 
overheating.
    EPA gets concerned about the impact of these water intake 
systems on larva or fish. So they do an assessment, EPA does an 
assessment. They find that the rule would impose $466 million 
in annual costs on powerplants and consumers, while the 
benefits would be about a $16 million benefit. So in other 
words, you've got $1 of cost for every 3 cents in fish 
benefits.
    So then what EPA does is after they do this assessment, 
they chose to mail out a survey to several thousand households 
asking them to place a value on how fish and other aquatic 
organisms make them feel. Now, I don't know how you define how 
a fish makes me feel, but the survey asked how much people 
would be willing to save 600 million fish.
    And then last summer, EPA published a notice based, in 
part, on this fish survey showing that the fish benefits are 
now $2.2 billion per year. This is a 14,000-percent increase 
over the initial estimate.
    So it kind of speaks to the point that I have made that 
when we talk about costs benefit and the analysis, I think it 
is important to really understand in fairness how we have 
arrived at these analyses because it is important as we, as 
policymakers, make determinations, try to figure out how we 
advance legislation that is good, sound policy, good for the 
economy, good for jobs.
    And so when we see things like this where it would appear 
that you are truly overstating benefits based on what most of 
us would suggest is a pretty flimsy survey, it casts doubt on 
whether or not there is any credibility to the analysis.
    So rather than putting you on the spot and saying, ``Is 
this fair? Should we restructure it?'' I think it is something 
that I would ask the Agency to look at critically. Take, not 
necessarily that the U.S. Chamber of Commerce has all the 
answers, but again, for us in policymaking positions, you as 
the agencies working to move through regulations, we want to 
make sure that there is good value to taxpayers throughout all 
of this.
    So how we do these analyses fairly, I think, is something 
we should all be focused on, and I would welcome your input and 
that of others within the Agency as we kind of move forward on 
this. But I do appreciate you being here.
    And again, I appreciate the chairman, the thoughtful way 
that you not only conduct the hearings, but in getting us to 
the point where we have good, thoughtful, constructive 
hearings.
    Senator Reed. Thank you very much, Senator Murkowski.
    I think she makes an excellent point. These cost benefit 
analyses are critical and there are some things you can measure 
easily, you know, the cost to put a boiler in. There are costs 
and benefits that are hard to measure because there are social 
costs or social benefits. So I think her point is well taken as 
your analysis has to be very nuanced, sophisticated, and 
factually based on both the cost side and the benefit side. So 
I will echo that thought.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you very much, Mr. Administrator. I am sure there 
are many questions that will be forthcoming. I will ask that 
all questions be submitted by May 1, next Wednesday, and then 
ask you to respond as promptly as possible to the questions.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]

                Questions Submitted by Senator Jack Reed

               FERTILIZER PLANT EXPLOSION IN WEST, TEXAS

    Question. What was EPA's role in assuring safe handling and storage 
of the chemicals at the facility in West, Texas that exploded on April 
17, 2013?
    Answer. EPA is responsible for implementing regulations and 
policies both under the Clean Air Act and under the Emergency Planning 
and Community Right to Know Act (EPCRA). The regulations under these 
laws required West Fertilizer to prepare a Risk Management Plan (RMP) 
under section 112(r) of the Clean Air Act (the Risk Management Program) 
and EPA regulations at 40 CFR part 68. West Fertilizer was also 
required to report their chemical inventory to local and State 
officials under EPCRA sections 311 and 312. West Fertilizer did submit 
an RMP in June 2011 as well as a chemical inventory form for calendar 
year 2012.
    Under the Risk Management Program, a covered facility is required 
to conduct a review of the hazards associated with covered substances, 
processes and procedures, and then develop a prevention program and an 
emergency response program addressing those hazards. The ``regulated 
substances'' are chemicals which, by virtue of an accidental release to 
the ambient air, have the potential to cause serious adverse effects to 
human health and the environment. The Risk Management Program is not an 
``all hazards'' regulation. It is aimed specifically at risks arising 
from the accidental release of a covered substance to the ambient air. 
Accordingly, ammonium nitrate is not a covered substance under the Risk 
Management Program. West Fertilizer did submit an RMP to EPA for the 
anhydrous ammonia at its facility. This is the only chemical present at 
the facility for which an RMP was required.
    The ``Hazard Review'' conducted under this process must identify 
opportunities for equipment malfunction or human error (such as flood 
or fire), that could in turn cause the accidental release of covered 
substances, as well as safeguards to prevent the potential release, and 
steps to detect and monitor for a release. These requirements are 
documented in the RMP that is submitted to the EPA. A covered facility 
must implement the RMP and update it every 5 years or when certain 
changes occur. The EPA is responsible for implementing and overseeing 
this program which includes the development and implementation of 
regulations and policy, providing technical assistance, carrying out 
inspections and conducting enforcement at covered facilities.
    The EPA Region 6 conducted an RMP inspection at the West Chemical & 
Fertilizer Co. on March 16, 2006. The inspector observed the processes 
and the equipment at the facility, and reviewed the facility's RMP and 
associated records. The inspector identified the several violations, 
including:
  --failure to update the RMP (the update due in 2004 had not been 
        submitted), including updating the Hazard Assessment and Hazard 
        Review and consequences of deviation in operating procedures,
  --failure to properly document new operator training,
  --failure to develop a formal mechanical integrity program, and
  --failure to conduct compliance audits.
    In accordance with the EPA approved penalty policy in place in 
2006, on June 5, 2006, the Region issued a proposed Expedited 
Settlement Agreement (ESA) which assessed a penalty of $2,300 to West 
Chemical & Fertilizer Company. The company submitted its updated RMP on 
July 7, 2006 and paid the penalty. As a condition of the ESA, the 
company was required to correct all deficiencies identified during the 
inspection. The Agency issued the final ESA on August 14, 2006.
    Sections 311 and 312 of EPCRA require facilities to submit to State 
and local emergency planning authorities (but not to EPA) information 
on hazardous chemicals on-site in order to help communities prepare for 
and respond to chemical accidents. Ammonium nitrate is reportable (in 
quantities above 10,000 lbs) under this regulation and it appears at 
this time that West Fertilizer had reported as required.
    For each extremely hazardous chemical as listed under section 302 
of EPCRA, or each hazardous chemical (including explosives) as defined 
by the Occupational Safety and Health Administration (OSHA) Hazard 
Communication Standard at a facility in excess of established threshold 
amounts, the facility must annually submit a Material Safety Data Sheet 
(MSDS) and a Hazardous Chemical Inventory Form (Tier II form) to their 
State Emergency Response Commission (SERC), their Local Emergency 
Planning Committee (LEPC) and their local fire department. The MSDS 
contains information on chemical identification, health and physical 
hazard, necessary personal protective equipment and emergency response 
procedures. The Tier II form contains facility identification, chemical 
identification, the form of chemical present, the amount of chemical 
on-site and days per year on-site, the location of the chemical at the 
facility and the type of storage used.
    As noted above, West Chemical and Fertilizer submitted Tier II 
forms in 2012 for seven chemicals, including ammonium nitrate and 
anhydrous ammonia. This information is designed to be used by State and 
local authorities for preparing for and responding to potential 
accidents. Fire departments may use the information to help them in 
addressing issues or compliance with fire codes and safe storage of 
chemicals under applicable State or local laws.
    Question. What regulatory authority does EPA have to limit the 
types or amounts of chemicals at a facility for safety concerns 
compared to its Federal and State partners? Please provide a detailed 
explanation that explains the agency's roles and responsibilities 
compared to its partners.
    Answer. Under the current Clean Air Act (CAA) section 112(r) Risk 
Management Plan regulations at 40 CFR part 68, the EPA does not have 
authority to limit the types or amounts of chemicals at a regulated 
facility for safety concerns.
    The CAA section 112(r)(1) General Duty Clause (GDC) can require 
facilities to take steps to ensure compliance with the general duty. 
The GDC requires facilities to identify hazards which may result from 
releases using appropriate hazard assessment techniques, to design and 
maintain a safe facility taking such steps as are necessary to prevent 
releases, and to minimize the consequences of accidental releases which 
do occur. Such steps could include limiting the type or amount of 
chemical to address unsafe conditions or hazard present at the source. 
The EPA's GDC is similar to that of OSHA in the Occupational Safety and 
Health Act.
    CAA section 112(r)(9) authorizes the EPA to take actions to abate 
any ``imminent and substantial endangerment to human health or welfare 
or the environment because of an actual or threatened accidental 
release of a regulated substance.'' In such cases where such a danger 
exists, EPA can require facilities to limit a chemical's presence in 
order to address the threat.
    The EPA does not have sufficient familiarity with the regulatory 
authority of its partner agencies to provide the comparative analysis 
requested. We respectively defer to our partners agencies to explain 
the nature of the regulatory authority that they implement.
    Question. How does EPA coordinate with other Federal agencies such 
as the Department of Homeland Security to ensure chemical facility 
safety and security?
    Answer. On a Federal level, the EPA has an effective working 
relationship with key Federal agencies involved in chemical safety, 
including OSHA, the Department of Homeland Security (DHS), the Chemical 
Safety Board (CSB), and the U.S. Department of Transportation (DOT). As 
part of our collaboration and coordination with these agencies, we meet 
regularly or as issues arise to discuss areas of interest in our 
programs and how to work together to better implement our respective 
programs and promote chemical safety. An example of such cooperation is 
the ongoing sharing of information between the EPA and DHS and OSHA. 
Since the EPA completed building the RMP database, it has been 
available to OSHA, and they have used it to (in part) prioritize their 
inspections. Since the advent of the Chemical Facility Anti-Terrorism 
Standard (CFATS), the EPA has made our RMP facility database available 
to DHS, and continues to do so.
    In addition, on August, 1, 2013, the President issued Executive 
Order (EO) 13650 establishing a Chemical Facility Safety and Security 
Working Group and setting forth additional actions to be taken by the 
Federal Government in an effort to further improve the safety and 
security of chemical facilities and reduce the risks of hazardous 
chemicals to workers and communities. The Executive Order calls upon 
Federal agencies to initiate innovative approaches for working together 
on a broad range of activities, such as identification of high-risk 
facilities, inspections, enforcement, and incident investigation and 
follow up. Additionally, Federal agencies are specifically directed to 
modernize the collection and sharing of chemical facility information 
to maximize the effectiveness of risk reduction efforts and reduce 
duplicative efforts. EPA will co-chair the working group and has taken 
steps toward compliance with the EO. For example, EPA, OSHA, and DHS 
have deployed the regional pilot program that will validate best 
practices and test innovative new methods for Federal interagency 
collaboration on information collection and utilization, inspection 
planning, and stakeholder outreach.
    Question. Risk management plans describe the ways in which a 
facility reduces the likelihood of accidental releases of extremely 
hazardous substances and their plans for dealing with any accidental 
releases which may occur. Please describe the enforcement 
responsibilities of the agency's Risk Management Plan.
    Answer. The RMP is a summary of the facility's risk management 
program and is to be submitted to the EPA. In general, the RMP 
submitted by most facilities includes the following: executive summary; 
registration information; off-site consequence analysis; 5-year 
accident history; prevention program; and emergency response program.
    Owners or operators of a facility with more than a threshold 
quantity of a regulated substance in a process, as determined under 40 
CFR section 68.115, must submit an RMP no later than the latest of the 
following dates: 3 years after the date on which a substance is first 
listed under 40 CFR section 68.130; or the date on which a regulated 
substance is first present in a process above a threshold quantity. The 
RMP must be reviewed and updated at least once every 5 years from the 
date of a facility's latest submission.
    RMP inspections ensure compliance with the Risk Management Program, 
and these inspections can lead directly to enforcement actions for 
regulatory violations as they involve on-site verification activities. 
Most EPA oversight and enforcement of CAA section 112(r) and 40 CFR 
part 68 involve inspections.
    EPA takes enforcement actions against facilities that fail to 
submit an RMP and those that fail to comply with the other part 68 
requirements. For example, if there is evidence of a facility's failure 
to perform an initial process hazard analysis on covered processes (40 
CFR section 68.67) and failure to train an employee involved in 
operating a covered process (40 CFR section 68.71) then EPA could (and 
does) take an enforcement action to assess penalties and obtain 
compliance for both violations. If a facility has not submitted an RMP 
but has a chemical accident prevention program in place which satisfies 
the specific part 68 requirements, a single count for failing to file 
an RMP may be appropriate. See Combined Enforcement Policy for Clean 
Air Act 112(r)(1), 112(r)(7), and 40 CFR part 68, dated June 2012. 
(http://www.epa.gov/enforcement/air/documents/policies/gdc/
112rcep062012.pdf)
    Question. How much funding has been provided for the Risk 
Management program in fiscal year 2013, and how much funding is 
requested in the fiscal year 2014 budget request?
    Answer. The agency Risk Management program resource level in the 
fiscal year 2013 Enacted Operating Plan is $12.2 million (including a 
$655,000 reduction for sequester) and $14.1 million in the fiscal year 
2014 President's budget request. This includes a $0.8 million increase 
to support additional high-risk chemical facility inspections. The 
request will enable EPA to conduct 460 RMP inspections in fiscal year 
2014. Of these inspections, 34 percent will be conducted at high-risk 
facilities.

                        ENVIRONMENTAL EDUCATION

    Question. What is the rationale behind eliminating a centralized 
environmental education program, and what benefit does the 
administration expect to achieve? Please explain how EPA plans to 
effectively manage environmental education grants if they are spread 
across EPA programs rather than centrally coordinated.
    Answer. Eliminating the centralized Environmental Education (EE) 
program allows the Agency to better integrate environmental education 
activities into existing Agency programs under a streamlined and 
coordinated approach. The EPA remains committed to environmental 
education and outreach and will continue to ensure that all of the 
EPA's content and information is available to students, educators and 
communities.
    In fiscal year 2014, the EPA will employ an intra-agency approach 
to environmental education grant making which will allow the Agency to 
leverage existing full-time equivalent (FTE) and grant management 
resources. This intra-agency coordination will maximize reduced 
resources and afford additional programming that has a greater impact 
on 21st century EE needs. By integrating EE into all of our program 
offices via funds and support from the Office of External Affairs, we 
are confident that the EPA's work in educating the American public will 
continue in a more effective way than previously structured.
    For the past 3 fiscal years the EPA's EE grant program has been 
aligned with the agency priorities in air, water, solid waste, toxic 
substances and expanding the conversation on environmentalism. These 
are many of the same programs that have existing EPA authorities that 
enable the EPA to perform the new environmental grant and outreach 
approach. These authorities include: Clean Air Act; Clean Water Act; 
Solid Waste Disposal Act; Safe Drinking Water Act; Toxic Substances 
Control Act; Federal Insecticide, Fungicide, and Rodenticide Act.

      SOUTHEAST NEW ENGLAND COASTAL WATERSHED RESTORATION PROGRAM

    Question. What progress does EPA expect to make on the Southeast 
New England Coastal Watershed Restoration initiative in the current 
fiscal year?
    Answer. In fiscal year 2013, the EPA expects to build on the 
progress made over the past year, bringing together a variety of 
stakeholders for the restoration of coastal southeast New England 
waters. The EPA has met extensively with Federal and State agencies as 
well as key stakeholders and the two local National Estuary Programs 
(Narragansett and Buzzards Bay) across Rhode Island and Massachusetts. 
Response has been positive, with a specific desire to devise a 
collective approach to advance key habitat and water quality 
restoration priorities, particularly in work that helps achieve both 
objectives. Key progress and activities to date are summarized below.
    The EPA facilitated sessions of a broadly composed working group 
drawn from Partnership members to: Develop a vision statement, draft 
restoration framework, and explore organizational options for 
sustaining implementation over the long-term; analyze approaches to 
regional-scale restoration that merges both habitat and water quality 
objectives, with a specific focus initially on nutrients; and identify 
gaps in existing programs and highlight potential opportunities for on-
the-ground restoration projects.
    The EPA provided staff analytical support to: Inventory and assess 
existing restoration efforts; analyze and present models of other 
successful regional programs as possible frameworks/strategies for 
regional restoration; begin development of restoration metrics; and 
partner with the Massachusetts Clean Energy Foundation to support an 
RFP element seeking innovative solutions for cheaper and more effective 
denitrifying septic systems.
    Question. How much funding does EPA expect the program to receive 
in fiscal year 2013, and how will these funds specifically be used to 
support the program?
    Answer. The EPA proposes to formalize the establishment of the 
Southeast New England Coastal Watershed Restoration Program in fiscal 
year 2014 by including a $2 million budget request. In fiscal year 
2013, the EPA is preparing for this new program through the Surface 
Water Protection and National Estuary Program budgets, but has not 
dedicated additional funding for activities beyond those conducted 
under the NEP and for other watershed efforts. These activities 
include: hosting Southeast New England Coastal Watershed Restoration 
Partnership meetings; development of a restoration framework and 
criteria as well as organizational and communication materials in 
preparation for the initiative.
    Question. What activities does EPA plan to carry out with the $2 
million included for this initiative in the fiscal year 2014 budget 
request?
    Answer. The EPA plans to work with the newly formed Southeast New 
England Coastal Watershed Restoration Partnership to restore the 
ecological health of southeast New England's estuaries, watersheds, and 
coastal waters by funding large projects to restore physical processes, 
improve water quality, and restore key habitat. The initial focus will 
be on nutrients and habitat, as well as nonpoint source and stormwater 
pollution. This initiative will adopt a holistic, systems-based 
approach to restoration by incorporating a variety of integrated 
management approaches that address the region's broad set of stressors 
and disturbances. We will work closely with the Narragansett Bay and 
Buzzards Bay National Estuary Programs as well as active groups on Cape 
Cod.

                 BEACHES PROTECTION CATEGORICAL GRANTS

    Question. What is the justification for eliminating the Beaches 
Protection Categorical grant program?
    Answer. EPA's proposal to eliminate the Beach Grant Program is a 
product of the hard choices the agency had to make in light of the 
difficult fiscal situation we face. This is especially acute in light 
of the significant cuts imposed on the agency by sequestration. In 
fiscal year 2013, EPA reviewed its programs for areas where any 
potential efficiencies and streamlining can yield savings. The Agency 
is proposing to eliminate certain mature program activities that are 
well established, well understood, and where there is the possibility 
of maintaining some of the human health benefits through implementation 
at the State and local levels. EPA's beach program has provided 
important guidance and significant funding to successfully support 
State and local governments in establishing their own programs. 
However, States (including territories and tribes) and local 
governments now have the technical expertise to continue beach 
monitoring as a result of the technical guidance and more than $110 
million in financial support the EPA has provided over the last decade 
through the beach program.
    Question. What assurance does the Committee have that these 
programs will be maintained by other funding sources if Federal grants 
are eliminated?
    Answer. Beach monitoring continues to be important to protect human 
health. States will determine, based on resources and priorities, 
whether and to what extent to continue beach monitoring within the 
context of their broader water quality monitoring program. Under Clean 
Water Act section 106, grant-eligible States are expected to have a 
monitoring program consistent with EPA's guidance on elements of a 
monitoring program. Recreational uses are included in the guidance.

                        E-ENTERPRISE INITIATIVE

    Question. The budget requests $60 million for E-Enterprise. Is the 
proposed E- Enterprise initiative a one-time investment, or a multi-
year investment?
    Answer. E-Enterprise for the Environment is a major effort to 
transform and modernize how EPA and its partners conduct business. It 
is a joint initiative of States and EPA to improve environmental 
outcomes and dramatically enhance service to the regulated community 
and the public by maximizing the use of advanced monitoring and 
information technologies, optimizing operations, and increasing 
transparency. An initiative of this scale will require multiple years 
of planning, implementation, and investments that will allow us to 
reduce future costs for regulated entities and the States while giving 
the public access to comprehensive, timely data about the environment.
    E-Enterprise includes a number of complex and simultaneous 
projects, including streamlining regulations, enhancing data systems, 
expanding public transparency, and improving collaboration among EPA 
and the States. For example, it will involve the creation of an 
electronic interactive ``portal'' for the regulated community to do 
things like apply for EPA and State permits, access information on 
their permit status, submit compliance information to States and EPA, 
and receive compliance assistance from environmental agencies. The 
portal will also result in greater sharing of data on environmental 
conditions with the public, thereby empowering communities to help 
solve their own pollution problems. In addition, the initiative will 
explore the use of advanced monitoring technologies that could provide 
more accurate, timely and reliable environmental data about 
environmental conditions and specific pollutant discharges. Under E-
Enterprise, environmental agencies will also make e-reporting the ``new 
normal'' in environmental regulations, thereby significantly reducing 
paper reporting and reaping major benefits in terms of cost savings for 
industry and for the EPA and States and the availability of timely, 
more accurate information. In order to achieve these benefits, 
significant investment will be needed in IT systems, process changes, 
monitoring equipment, and rule design for EPA and its State partners. 
If EPA receives its full request for E-Enterprise funding in fiscal 
year 2014, the Agency projects that funding needs would span 
approximately a 5-year timeframe.
    Question. If it is a phased approach, how many years does EPA 
expect to request funding for this initiative and what will be the 
total cost of the initiative?
    Answer. EPA will be phasing this initiative, and EPA expects to 
request funding over multiple years. The total cost of the initiative 
has not yet been determined as EPA needs to complete formal analysis of 
the projects and how they will be implemented over the next few years. 
EPA is also collaborating closely with its State partners through the 
Environmental Council of States (ECOS), and State input will be 
critical in completing a full plan for E-Enterprise phasing. EPA and 
ECOS expect to complete a full plan for E-Enterprise phasing in fiscal 
year 2014. If EPA receives its full request for E-Enterprise funding in 
fiscal year 2014, the Agency projects that funding needs would span 
approximately a 5-year timeframe.
     Question. The budget request discusses the potential cost savings 
that the regulated community will realize through electronic reporting. 
If funded in fiscal year 2014, when will the initiative be fully 
operational?
    Answer. The initiative consists of a series of interconnected 
projects. Some projects will be completed sooner, such as shared tools 
for validating electronic reporting. Other projects will take longer to 
be fully operational, such as NPDES electronic reporting and electronic 
manifests for hazardous waste. EPA has not yet projected a fixed date 
for when the entire initiative will be fully operational, but EPA 
projects that the initiative will span approximately a 5-year timeframe 
(depending on availability of funding) and some components should be 
operational in the fiscal year 2014 to fiscal year 2015 timeframe, and 
that initial cost savings could begin to be realized after these 
components are operational.

                          BROWNFIELDS PROJECTS

    Question. EPA is proposing to reduce the brownfields projects 
funding by 10 percent, yet at the same time it increases the operating 
program for brownfields by 10 percent ($2.4 million). What is the 
explanation for why EPA is cutting the brownfields projects program but 
at the same time increasing operating costs?
    Answer. The Agency's fiscal year 2014 request for brownfields 
program related costs provides critically needed funding to support the 
successful and timely selection and funding of annual brownfields grant 
competition awards; manage existing and future brownfields 104(k) and 
128(a) grants; increase technical assistance and outreach activities 
for local communities, States, and other brownfield stakeholders; and 
improve the collection of program data to assess and identify the most 
efficient and effective use brownfields grant funds.

                              RADON GRANTS

    Question. Last year, EPA, along with the American Association of 
Radon Scientists and Technologists and the Conference of Radon Control 
Program Directors conducted an assessment to determine the needs of 
State radon programs if State Indoor Radon Grants were eliminated. 
Twenty-three States reported that they will have to eliminate their 
radon programs. Based on these results, why did EPA decide to eliminate 
this important grant program?
    Answer. The State Indoor Radon Grants (SIRG) program was 
established by Congress to fund the development of States' capacity to 
raise awareness about radon risks and promote public health protection 
by reducing exposure to indoor radon gas. After 23 years in existence, 
the radon grant program has succeeded in establishing States' capacity 
to raise awareness about radon risks and promote public health 
protection by reducing exposure to indoor radon gas. Also, given the 
current budget climate, eliminating the SIRG program is an example of 
the hard choices the Agency has had to make. The elimination of SIRG 
funding in fiscal year 2014 will mean that EPA will no longer subsidize 
State radon programs (and local programs with whom they collaborate) as 
they continue their efforts to reduce the public health risks of radon. 
Instead, the States will need to target their remaining resources to 
continue radon-related activities, such as training real estate and 
construction professionals; adopting building codes; and conducting 
outreach and education programs. To better target resources at the 
Federal level, EPA will implement the Federal Radon Action Plan, a 
multi-year, multi-agency strategy for reducing the risk from radon 
exposure by leveraging existing Federal housing programs and more 
efficiently implementing radon-related activities to have a greater 
impact on public health.

                             SEQUESTRATION

    Question. Thirteen percent of EPA's budget is grants that go to the 
States so that they can implement their pollution control programs, and 
sequestration impacts those programs too. What effect will a 5 percent 
cut to the categorical grants have on the State agencies?
    Answer. It should be noted that approximately 43 percent of the EPA 
budget is appropriated as grants to States and tribes (STAG); 
categorical grants comprise approximately 13 percent of the EPA budget.
    With that said, sequestration will reduce funding for activities 
that positively impact our communities, the health of our families, and 
the economic vitality of key industries by reducing categorical grant 
funding by $54.6 million from fiscal year 2012. For example:
    STAG.--The STAG appropriation funds States directly for 
environmental initiatives and programs. The reductions due to 
sequestration will impact States' ability to perform technical 
assistance to small systems in need, conduct sanitary surveys, achieve 
drinking water compliance targets and short-term annual numerical goals 
for reducing nitrogen, phosphorus, and sediment loads.
    PWSS.--This grant funding enables States to target and support 
small systems that pursue effective compliance strategies, including 
identifying appropriate treatment technologies, alternative sources of 
water, consolidation options, and sources of funding. A cut of this 
magnitude will impact the States' ability to oversee and ensure that 
public water systems, especially small systems, provide safe, reliable 
drinking water to their customers. Small systems alone account for over 
9,000 health based violations which have nearly doubled since 2002.
    Section 319 Grants.--This funding helps States meet Clean Water Act 
requirements for nonpoint source pollution. This reduction would 
eliminate approximately 45 nonpoint source projects throughout the 
United States. The reduced funding for projects will impact States' 
ability to achieve goals for reducing nitrogen, phosphorus, and 
sediment loads.
    State and Local Air Quality.--States depend on EPA funding for air 
monitoring sites that provide vital information to citizens with 
respiratory and cardiac diseases trying to avoid the harmful impacts of 
air pollution. In considering where to take the reductions, EPA has 
been looking at several different options to minimize the impact on 
States. Among these options, EPA is looking at potential flexibilities 
across its suite of monitoring programs. For example, with Phase I of 
the NO<INF>2</INF> near-road monitoring rollout now complete, EPA is 
exploring extending the implementation of Phase 2. Additionally, EPA is 
considering deferring spending on replacement of monitoring equipment, 
data analysis, and methods development.
    Categorical Grant Brownfields.--States utilize EPA funding to 
establish core capabilities and enhance their brownfields response 
programs which include activities such as oversight of site cleanups. 
This reduction will result in existing grantees experiencing reductions 
in their fiscal year 2012 allocation in order to accommodate new 
applicants (on average, EPA receives seven new requests a year from 
eligible tribes and/or territories). The reduction will also result in 
State and local staff reductions that would decrease the number of 
properties that could be overseen by Voluntary Cleanup Programs by 
nearly 600 properties a year.
    Lead Program.--Lead-Based Paint STAG funds support authorized 
States and tribes in their ability to implement training and 
certification programs for lead-based paint abatement and renovation, 
which are key efforts in the goal of reducing the prevalence of 
childhood lead poisoning. Impacts caused by sequestration could include 
a decrease in the ability to perform compliance assistance to the 
regulated community as well as certification of firms and accreditation 
of training providers. Reductions could also impact EPA's ability to 
implement the program in the 37 States where EPA operates the 
renovation program and in the 11 States where EPA operates the 
abatement program.
    Pesticides Program Implementation.--This funding helps States and 
tribes ensure that pesticide regulatory decisions made at the national 
level are translated into results at the local level; since 
responsibility for ensuring proper pesticide use is in large part 
delegated to States and tribes, this funding is critical. Reduced 
funding will result in a proportional reduction of activities by State 
and tribal program staff. For example, funding reductions will cause 
reduced worker protection training; reduced monitoring, evaluation, and 
response for pesticides in local water resources; fewer programs to 
help identify, respond to, and prevent pesticide poisoning; and reduced 
outreach on the safe handling and use of pesticides.

                          HYDRAULIC FRACTURING

    Question. In 2010, Congress directed EPA to initiate a multi-year 
study on potential impacts of hydraulic fracturing on drinking water 
resources. Where is EPA in this process?
    Answer. In 2011, EPA released the Final Plan to Study the Potential 
Impacts of Hydraulic Fracturing on Drinking Water Resources. The study 
plan reflects extensive input from the EPA's Science Advisory Board 
(SAB); industry; environmental and public health groups; States; 
tribes; and communities. EPA released a Progress Report in December 
2012 that provides an update of the ongoing research.
    In March 2013, the EPA's independent SAB announced the formation of 
its Hydraulic Fracturing Research Advisory panel. In May, EPA received 
input from individual panel members on EPA's ongoing research to inform 
the report of results. EPA expects to release the draft report of 
results of the Study of the Potential Impacts of Hydraulic Fracturing 
on Drinking Water Resources for external peer review in late calendar 
year 2014.
    Question. Is the Agency on track to issue a final report next year?
    Answer. The EPA expects to release the draft report of results of 
the Study of the Potential Impacts of Hydraulic Fracturing on Drinking 
Water Resources for external peer review in late calendar year 2014.
    Question. Last year, EPA signed an MOU with the Department of 
Energy and the U.S. Geological Survey to coordinate and align current 
and future hydraulic fracturing research. What progress and 
coordination have been made since then?
    Answer. The Tri-Agency Research Plan is still under development. 
The work to date to develop the plan has been very helpful in both 
coordinating the research efforts of the three agencies and developing 
the President's fiscal year 2014 budget request.
    The EPA, the Department of Energy (DOE), and the U.S. Geological 
Survey (USGS) routinely exchange information regarding ongoing 
research, including plans and progress. Exchanges among the principal 
investigators, in addition to high level discussions, help to assure 
that scientific details about the work is shared and can be used to 
help inform work underway by others.
    DOE's National Energy Technology Laboratory recently briefed the 
EPA on the progress of their work in hydraulic fracturing. Reciprocal 
meetings will be held soon. USGS briefed the EPA on their work in 
seismicity. DOE and USGS are among those participating in the EPA's 
technical workshops, in which they engage in information exchange 
regarding research both with the EPA and the other participants.
    Question. EPA is also proposing to do more hydraulic fracturing 
research in the area of air and water quality. What additional 
information does EPA hope to learn from this research and what is the 
timeline to complete this research?
    Answer. The EPA will study air emissions from Unconventional Oil 
and Gas (UOG) operations, including hydraulic fracturing, particularly 
the composition and rates of emissions from key sources (e.g., 
wastewater handling operations, and emissions during completion and 
production from wells that have been hydraulically fractured) and 
possible preliminary dispersion modeling and/or ambient measurements to 
verify source emissions data.
    Building upon knowledge obtained from the Drinking Water Study, the 
EPA will work to better characterize the composition of wastewater and 
wastewater treatment residuals, including solids, as well as develop an 
approach to define and evaluate the potential area of impact around 
horizontal wells from UOG operations, including hydraulic fracturing, 
across the United States.
    At this time, we do not expect that the air and water quality 
research will culminate in a report like the multi-year study on 
potential impacts of hydraulic fracturing on drinking water resources. 
There is not a specific deadline when the research will be completed.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall

                         STATE REVOLVING FUNDS

    Question. I heard Senator Reed comment on the disappointment in 
cuts to the Clean Water and Drinking Water State Revolving Funds. I'd 
like to echo that disappointment.
    This program provides critical funding to States to invest in water 
infrastructure and protect clean water. In New Mexico we are looking at 
cuts of over 50 percent in terms from 2012 to 2014.
    I won't reiterate many of the concerns that have already been 
raised, but I'd like to point out a related problem that is brewing for 
New Mexico . . . flooding and polluted stormwater.
    We are experiencing record droughts in New Mexico, but when the 
rain comes, it can come in the form of heavy floods and monsoons. 
Stormwater is a major water quality problem, especially when the water 
flows over burned areas or overwhelms treatment plants.
    I'm currently circulating a discussion draft of legislation to spur 
innovative stormwater solutions--sometimes called ``green 
infrastructure'' since it minimizes the use of expensive steel and 
concrete. This bill supports cost-effective approaches that many 
communities are already integrating into their water management plans 
such as porous pavement, flood detention areas, and other designs that 
can help re-charge acquifers, rather than just send floods downstream.
    Does EPA believe that States like New Mexico need more help with 
water treatment infrastructure to meet Federal standards--and are these 
innovations a way to reduce costs?
    Answer. EPA understands that many State and local governments face 
challenges improving their water infrastructure to meet water quality 
objectives. The Agency supports green infrastructure as a cost-
effective solution to reduce stormwater pollution and help control the 
impacts of localized flooding. Many communities have already 
demonstrated that by using green infrastructure to reduce the 
stormwater flows going into their sewer systems or further downstream, 
they can avoid more costly gray infrastructure investments and save 
money. Communities have also recognized that green infrastructure can 
provide multiple environmental and community benefits, making it an 
attractive investment option.

                             MINE SCREENING

    Question. I understand from the budget justifications that the EPA 
has a goal of completing 93,400 assessments by 2015 at potential 
hazardous waste sites to determine if they warrant more analysis and 
remediation. It is also my understanding that in recent years much of 
this screening was uranium mine assessments, including surveys of 521 
mines in the Navajo Nation.
    Additionally, EPA Region 6 continues to conduct screenings of mines 
throughout New Mexico. According to the EPA budget justification, the 
President's budget could fund 700 new screenings.
    Do you expect a portion of these will be carried out in New Mexico 
and the Navajo Nation?
    Answer. About 20 percent of the remedial assessments in fiscal year 
2011 and fiscal year 2012 took place at abandoned uranium mines (AUM). 
Most of these AUM assessments were conducted as part of EPA Region 9's 
initial Five Year Plan to address uranium contamination on the Navajo 
Nation that ended in 2012. EPA's estimate of 700 total remedial 
assessments in fiscal year 2014 applies to all site types and includes 
3 assessments at non-Navajo Nation sites in New Mexico (two of the 
three are AUM sites) and 2 assessments at Navajo Nation AUM sites. EPA 
is currently working with DOI and DOE and the Navajo Nation to develop 
a second 5-year plan to address impacts from abandoned uranium mines. 
This plan will set goals for additional, more detailed assessments of 
uranium mines on the Navajo Reservation.
    Question. Does the EPA have a clear picture of the number of 
abandoned mine sites that continue to need screening throughout New 
Mexico and the Navajo Nation?
    Answer. EPA estimates about 60 AUMs in New Mexico and two AUMs on 
the Navajo Nation still require further Superfund remedial assessment. 
EPA expects to determine if additional AUMs on the Navajo Nation 
require more detailed assessment as part of the 5-year plan currently 
under development.
    Question. Given the President's fiscal year 2014 budget trajectory, 
would EPA be able to meet its goal of completing 93,400 assessments at 
potential hazardous waste sites by 2015?
    Answer. EPA expects to meets its goal of completing 93,400 
assessments at potential hazardous waste sites by 2015 based on 
completed assessments and planned future assessments.
    Question. Could you estimate what percentage of the abandoned 
uranium mine sites throughout the country will be screened when the EPA 
completes 93,400 assessments?
    Answer. EPA's Strategic Plan includes a goal of completing a total 
of 93,400 remedial assessments at potential hazardous waste sites by 
2015 since the inception of Superfund. While a portion of these 
assessments were at abandoned uranium mine sites, EPA has not 
determined the total number of abandoned uranium mines that need to be 
screened by the Superfund program. EPA expects the inventory of AUMs 
being developed by the DOE in coordination with EPA and Federal land 
management agencies may provide useful information in this regard. The 
inventory is planned for completion in July 2014.

                            SUPERFUND BUDGET

    Question. There are several Superfund sites in New Mexico and the 
Navajo Nation that I am very concerned about, including the North East 
Churchrock site and associated United Nuclear Corporation Superfund 
Site, and the Jackpile Mine located on the Pueblo of Laguna to name a 
few. It is my understanding that the President has proposed a $33 
million cut from fiscal year 2012 enacted levels for the overall 
Superfund budget, and it appears that this cut is specifically being 
taken out of the cleanup account which was enacted in fiscal year 2012 
at $796 million, but the President is now proposing $762 million.
    Could you explain for the committee this reduction in Superfund 
cleanup funds?
    Answer. The Superfund program's top priority remains protecting the 
American public by reducing risk to human health and the environment. 
While continuing to rely on the Agency's Enforcement First approach to 
encourage potentially responsible parties to conduct and/or pay for 
cleanups, the Remedial program will continue to focus on completing 
ongoing projects and maximizing the use of site-specific special 
account resources. The Agency will also continue to place a priority on 
achieving its goals for the two key environmental indicators, Human 
Exposure Under Control (HEUC) and Groundwater Migration Under Control 
(GMUC).
    Many Federal programs have undergone substantial reductions in the 
past few years to help address national budget deficits. The President 
has had to make difficult choices with regard to funding EPA programs, 
including the Superfund cleanup program. The fiscal year 2014 
President's budget request for the Superfund Remedial program 
represents a $26 million reduction from the fiscal year 2012 enacted 
level. Primarily because of a fiscal year 2013 sequestration reduction 
of $22 million, the fiscal year 2014 President's budget request for the 
Superfund Remedial program would represent a $32 million increase from 
the fiscal year 2013 enacted level. The scope of the reductions to the 
program is having effects on program performance throughout the cleanup 
pipeline leading to a reduction in EPA's ability to fund remedial 
investigation/feasibility studies (RI/FSs), remedial designs (RDs), 
remedial actions (RAs) and ongoing long-term response actions. Based on 
current planning data the number of EPA-financed construction (remedial 
action) projects that will not be funded could be as high as 40-45 by 
the end of fiscal year 2014.
    Question. Has the need for cleanup dollars decreased?
    Answer. No. The need for the cleanup dollars has not decreased as 
the program continues to address a large ongoing project workload and 
has unfunded projects ready to start. As referenced in the answer to 
the question above, the President's budget reflects difficult choices 
with regard to funding EPA programs, including the Superfund cleanup 
program.
    Question. How will these cuts impact efforts to complete Superfund 
cleanup throughout New Mexico?
    Answer. New Mexico currently has 14 sites on the final NPL, 4 sites 
deleted from the NPL, and 1 site (Jackpile-Paguate Uranium Mine) 
proposed for listing on the NPL. EPA is currently responding to 
extensive comments on the proposed rule to add Jackpile-Paguate Uranium 
Mine to the NPL with a final listing decision anticipated in fiscal 
year 2014.
    Of the 14 final NPL sites, 11 sites are designated as construction 
complete. The three sites that are not ``construction complete'' 
include MolyCorp, Inc., Eagle Picher Carefree Battery, and McGaffey and 
Main Groundwater Plume. The McGaffey and Main site has ongoing EPA-
funded remedial action work occurring. A new EPA-funded remedial action 
construction project at the site that is anticipated to be ready for 
funding this fiscal year may not be able to start work given the 
limited resources available for new construction projects nationwide. 
There is anticipated to be as many as 25 unfunded construction projects 
by the end of fiscal year 2013 and as many as 40 to 45 unfunded 
construction projects by the end of fiscal year 2014. Although Agency 
funding may not be available in fiscal year 2013 to start a new 
construction project at the site, all current human exposures are under 
control. EPA continues to seek out all available funds for construction 
projects ready to start work and a final decision on any funding 
available for new construction projects will be made later in the 
fiscal year. Cleanup at the MolyCorp, Inc. and Eagle Picher Carefree 
Battery sites are being conducted by potentially responsible parties 
with EPA enforcement oversight. Similarly, the work at the North East 
Church Rock site and the related United Nuclear Corporation NPL site is 
being conducted by a potentially responsible party with EPA oversight.

                          RESPONSIBLE PARTIES

    Question. Perhaps the most cost effective way of addressing funding 
of cleanup of mine, mill, and other contaminated sites is by 
identifying responsible parties. In considering mine and mill sites in 
the Navajo Nation alone, it is my understanding that principal 
responsible parties have been found for 74 mine sites, but that no 
responsible party has been identified for approximately 450 other 
sites.
    Could you share with the committee what the EPA is doing to 
identify responsible parties, and the potential impact identification 
of such parties would have on budgets and the EPA's ability to complete 
remediation of sites?
    Answer. Actions taken to identify responsible parties.--Since all 
of the contaminated mining sites on the Navajo Reservation are 
abandoned, EPA conducted investigations to try to identify the parties 
that owned or operated those sites in the past. EPA is committed to an 
``enforcement first'' approach that maximizes the participation of 
liable and viable parties in performing and paying for Superfund 
cleanups. As an initial step in our investigation, the EPA sent CERCLA 
104(e) letters requesting information about potential liability to 10 
companies that had been previously identified as having mined uranium 
on the Navajo Nation. The EPA used the information provided to identify 
Potentially Responsible Parties (PRPs) for mines posing the highest 
risks. Prior to initiating extensive research, the EPA and Navajo 
Nation EPA (NNEPA) worked together to identify mines that both agencies 
agreed posed the greatest risk to human health and the environment.
    To date, EPA has notified potentially responsible parties of 
liability for 74 mines on the Navajo Reservation, including:

                             IDENTIFIED PRPS
------------------------------------------------------------------------
                                                                    No.
                  Potentially Responsible Party                    Mine
                                                                  Claims
------------------------------------------------------------------------
Tronox Incorporated.............................................      49
KinderMorgan, Inc. (El Paso Natural Gas Company)................      20
Western Nuclear, Inc./Freeport-McMoRan Copper and Gold, Inc.....       2
United Nuclear Corporation/General Electric.....................       1
Chevron U.S.A. Inc..............................................       1
Rio Algom Mining LLC............................................       1
                                                                 -------
      Total Number of Mine Claims With Identified PRP...........      74
------------------------------------------------------------------------

    The other 449 mine sites are being evaluated for human health risk, 
and EPA is conducting searches for PRPs at mine sites as we determine 
that they require CERCLA response actions.
    Potential impact identification of such parties would have on 
budgets and the EPA's ability to complete remediation of sites.--The 
EPA is continuing to pursue an enforcement-first policy, and will 
continue to conduct searches for PRPs at abandoned uranium mines on the 
Navajo Reservation. Identification of PRPs for abandoned mines on the 
Navajo Reservation is essential in order to provide additional 
resources for EPA to conduct further investigations and clean up at 
mines.
    Impacts on EPA's budget and ability to complete remediation of 
sites cannot be reasonably estimated at this time as much of this work 
is dependent upon ongoing studies and assessments. However, in general, 
uranium mining site cleanup costs have historically been very 
expensive, in the range of tens of millions of dollars or more per 
mine. To date, PRPs have spent over $17 million to carry out site-
specific CERCLA response actions at abandoned mines on the Navajo 
Reservation. In addition, EPA has collected more than $11 million 
pursuant to settlements with PRPs. The use of these resources is taken 
into consideration during the annual budget formulation process. Both 
Superfund special account resources and appropriated resources are 
critical to the Superfund program, and the Agency will continue to 
submit resource requirements on an annual basis through the budget 
formulation process for congressional consideration. Congressionally 
appropriated resources will then be allocated by the Agency to projects 
and activities based upon future project plans and program funding 
prioritization guidelines, including available resources from 
settlements with PRPs.
    EPA maintains a strong partnership with the Navajo Nation and, 
since 1994, the Superfund program has provided technical assistance and 
funding to assess potentially contaminated sites and develop a 
response. EPA is currently working with the Department of Energy, other 
Federal agencies, and the Navajo Nation to develop a second 5-year plan 
to address impacts from abandoned uranium mines. This plan will 
continue to build on our efforts of conducting associated responsible 
party enforcement and set goals for additional CERCLA response actions. 
EPA is committed to continue working with the Navajo Nation to reduce 
the health and environmental risks and to finding long-term solutions 
to address the remaining issues related to contamination due to 
abandoned mines on the Navajo Reservation.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski

                           KEYSTONE PIPELINE

    Question. On Monday, the last day for public comment, EPA concluded 
that the State Department's latest review of the Keystone pipeline 
project contains ``insufficient information'' on several fronts, 
including greenhouse gas emissions, alternative routes and the 
consequences of a potential spill of diluted bitumen. In 2010 and 2011, 
the EPA criticized the State Department's first two environmental 
reviews of the project on similar grounds. Now you've found a problem 
with the most recent Supplemental EIS.
    Can you explain what additional information needs to be collected 
at this point? The State Department received very similar criticisms 
from you before and you say they still didn't get it right.
    Answer. The Environmental Protection Agency's (EPA's) comment 
letter outlines a number of areas where we believe additional 
information will improve the analysis, including: pipeline safety, 
alternatives, and community impacts. The EPA also recommended 
strengthening the economic market analysis given that its findings are 
key to the Supplemental EIS's conclusions regarding the project's 
potential greenhouse gas emissions impacts.
    Question. Is this simply just a pretext for more delay?
    Answer. No, we do not believe that collecting the additional 
information will be time consuming, and the additional information will 
be important to inform Federal decision makers and the public about the 
potential environmental impacts of the project.
    Question. Can you explain what the process is going forward with 
respect to review of public comments and the timeline for a final 
decision on the pipeline?
    Answer. The Department of State (DOS) is currently reviewing public 
comments received on the Supplemental Draft Environmental Impact 
Statement (EIS) and is working to address those comments in the Final 
EIS. As a cooperating agency, the EPA is working with the DOS to 
address comments in the Final EIS; DOS is responsible for the Final 
EIS's preparation schedule. Once the Final EIS is issued, the DOS will 
begin its 90-day National Interest Determination process, which will 
weigh factors such as economics and energy security in addition to 
environmental impacts, and make a decision on whether to issue a permit 
for Keystone XL's boundary crossing.
    Question. Does the EPA have any plans to invoke its authority under 
the National Environmental Policy Act to object to the project and 
elevate an interagency dispute to the White House Council on 
Environmental Quality?
    Answer. The EPA is a cooperating agency in the development of the 
EIS, and we are committed to working with the DOS to prepare a document 
that informs decision makers and the public.

                          HYDRAULIC FRACTURING

    Question. Your budget requests $8 million to continue work on the 
hydraulic fracturing study that was requested by Congress in fiscal 
year 2010. However, there are a number of issues being raised with the 
methodology that the EPA is using to conduct the nationwide study. For 
example, my understanding is that the agency is starting its analysis 
with ``retrospective'' sites. These are locations where fracking has 
already occurred for years, potentially along with many other 
activities. ``Prospective'' sites, where fracking will be studied from 
its beginning won't occur until later and therefore those results won't 
be out until 2014 when the study is completed.
    Why did EPA decide to test retrospective sites to start the study? 
As we have seen with the Pavillion site in Wyoming, going back in time 
where hydraulic fracturing has occurred for years makes it very 
difficult to have a baseline and also complicates the assessment of the 
effects of the fracking process. Why did the agency not start with 
prospective sites, and test the technology in ``real time''?
    Answer. In developing its draft study plan, the EPA received input 
from a wide variety of stakeholders. Stakeholders from many points of 
view urged the EPA to include both prospective and retrospective case 
studies as part of the overall effort, and the Science Advisory Board 
also supported both types of case studies. Given this input, the EPA 
decided to conduct both types of case studies.
    The EPA began developing both the prospective and retrospective 
case studies at the same time. Retrospective case study locations were 
nominated by stakeholders. The EPA evaluated the nominated locations, 
identified five suitable locations for retrospective case studies, and 
started on them in a timely manner. The EPA continues to work with oil 
and gas well owner/operator companies to develop prospective case 
studies and intends to begin them expeditiously when suitable locations 
are identified.
    Late last month, the EPA announced the formation of the Hydraulic 
Fracturing Research Advisory panel made up of 31 individuals from 
academia, industry, and the environmental community. Some have 
criticized the composition of the panel as not having a sufficient 
number of experts with industry experience in hydraulic fracturing. 
Apparently, a number of Panel nominees were disqualified from serving 
because the EPA determined that they had a ``disqualifying financial 
interest.'' The American Petroleum Institute sent you a letter 
concerning this issue on March 22.
    Question. How would you respond to the criticism that the Research 
Advisory panel lacks ``real world'' industry experience?
    Answer. The Panel does not lack ``real world'' industry experience. 
The SAB panel is comprised of current employees of companies and 
consulting firms; government employees; and academics/university 
professors (including some previously employed in industry). It has at 
least three experts in each of the following nine areas of expertise 
that were sought for the panel: Petroleum/Natural Gas Engineering; 
Petroleum/Natural Gas Well Drilling; Hydrology/Hydrogeology; Geology/
Geophysics; Groundwater Chemistry/Geochemistry; Toxicology/Biology; 
Statistics; Civil Engineering; and Waste Water and Drinking Water 
Treatment.
    ``Real world'' industry experience includes working for private 
industry or in consulting. Eight panel members are current industry 
employees, or are currently working in consulting. These eight members 
have a collective total of 218 years working in industry or consulting 
(average of 27 years' experience each). Ten other panel members have 
significant industry experience (i.e., at least 2 or more years working 
as industry employees or as full-time consultants). These 10 members 
have a collective total of 61 years working in industry or consulting 
(i.e., an average of 6 years' experience each).
    Question. Out of the 31 members of the Panel, how many come from 
industry?
    Answer. Eight members of the Panel are current industry employees, 
or are currently working in consulting. Ten other members have 
significant industry experience (i.e., at least 2 or more years working 
as industry employees or as full-time consultants).
    Question. Did the EPA apply the rules concerning financial 
interests too narrowly when it came to industry experts? For example, 
I'm told that there are members of academia on the panel who have 
received grants from the EPA and other Government agencies or their 
universities do. Is that true? If so, how was that factored in their 
selection? Does that pose a potential conflict of interest?
    Answer. Members of Science Advisory Board (SAB) panels serve as 
Special Government Employees (SGE) or non-EPA regular Government 
employees and are subject to ethics rules and conflict of interest 
regulations that apply to executive branch employees. Rules defining 
financial conflicts of interest and appearance of a loss of 
impartiality are applied to all prospective panelists, regardless of 
their work affiliation or experience.
    With regard to financial conflicts of interest, 18 U.S.C. section 
208 prohibits the participation of panel members in particular matters 
in which the member (or his/her spouse or minor child) has a financial 
interest, if the matter will have a direct and predictable effect on 
that interest. For example, panel members and their immediate family 
are restricted from owning more than a certain de minimus dollar amount 
in a sector mutual fund or securities issued by one or more entities 
directly and predictably affected by the particular matter under 
consideration by the Panel. One remedy for an otherwise disqualifying 
financial interest is for the potential panelist to divest from the 
portion of holdings above the de minimus threshold. Several panelists 
did adjust their holdings in order to serve on the SAB Hydraulic 
Fracturing Research Advisory Panel.
    Ethics regulations issued by the Office of Government Ethics also 
provide for an exemption for SGEs serving on Federal advisory committee 
panels where the disqualifying financial conflict arises from their 
non-Federal employment or prospective employment when the particular 
matter under consideration is a matter of general applicability (see 5 
CFR 2640.203(g)). No candidate for the panel was excluded solely on the 
basis of his or her employment.
    Twenty-one members of the panel are current academic employees. All 
but one of these members either receive current research funding or 
have received recent research funding from the EPA or other Federal 
Government agencies. All of the institutions for which these members 
work receive current recent research funding from the EPA or other 
Federal Government agencies.
    In evaluating research funding, the SAB Staff Office follows the 
approach identified in the 2004 OMB Bulletin on peer review: ``Research 
grants that were awarded to the scientist based on investigator-
initiated, competitive, peer-reviewed proposals do not generally raise 
issues of independence. However, significant consulting and contractual 
relationships with the agency may raise issues of independence or 
conflict, depending upon the situation.'' The SAB Staff Office reviews 
the totality of the information for each prospective panelist, 
including the nature of grant support from the EPA and other entities, 
as it relates to the specific advisory activity being considered. The 
SAB Staff Office examines the funding sources indicated in the 
Confidential Financial Disclosure Form (EPA Form 3110-48) for the nexus 
between these sources and the work to be performed by the SAB as well 
as the nature of the source (e.g., grant or contract).
    In that context, the SAB Staff Office does not consider the current 
or past receipt of EPA or other Federal grants generally to be, by 
definition, a conflict of interest under 18 U.S.C. 208. Rather, the SAB 
Staff Office considers information about EPA (or other Federal) grants 
and other information as they relate to the context of the specific 
advisory activity. Furthermore, EPA generally does not consider 
research grants (whether current or past), if they are unrelated to the 
work being performed by the SGE on an SAB panel and are investigator-
initiated, competitive and peer-reviewed, to give rise to questions 
concerning the independence of a current or potential SGE.
    For future reviews by this Panel, if additional expertise is 
needed, the SAB Staff Office will augment the Panel to ensure that all 
necessary scientific expertise is present. In addition, the SAB Staff 
Office recognizes the need to keep the Panel as informed as possible 
with new and emerging information related to hydraulic fracturing. 
There will be periodic opportunities for the public to provide new and 
emerging information to the Panel. The SAB Staff Office will provide 
notice in the Federal Register and on our SAB website on the logistics 
venue for doing that.

             FOREST ROADS/SILVICULTURAL EXEMPTION FROM CWA

    Question. Section 429 of the fiscal year 2012 Interior bill 
codified for 1 year the 37-year-old EPA policy that forest roads 
associated with logging activities are not ``point sources'' requiring 
permits under the Clean Water Act. Under the terms of the fiscal year 
2013 continuing resolution, Congress barred EPA from beginning any new 
programs, and we understand that EPA has interpreted this language as 
barring the agency from initiating a permit program for forest roads.
    On March 20, 2013 in NEDC v. Decker, the Supreme Court reversed the 
Ninth Circuit court ruling that would have required mandatory permits. 
However, the Supreme Court did not address the Ninth Circuit Court's 
other ruling that forest roads are point sources subject to a permit or 
other Federal regulation by EPA under its discretionary authority 
within point source rules.
    I understand that EPA has sought public input and has said it is 
considering regulating a subset of forest roads as point sources 
through its flexible authority, though not via point source permits in 
response to a 2003 Ninth Circuit ruling regarding forest roads. I am 
concerned that this regulation will expose Federal, State, municipal, 
private and Alaska Native forestland owners to citizen lawsuits. Is the 
agency undertaking such a review pursuant to this litigation? If so, 
when will this review be complete?
    Answer. No. The Agency has made no decision at this time to develop 
a new rule requiring permits for stormwater discharges from forest 
roads.

                    SULFUR CONTENT RULE FOR GASOLINE

    Question. On March 29, EPA announced draft rules for automobiles 
designed to lower emissions by requiring the use of lower sulfur 
gasoline. According to the EPA, these new rules will cost refiners only 
1 cent per gallon while the refiners claim that this change will 
increase the cost of gasoline by 9 cents per gallon with very little 
environmental benefit.
    Can you explain how the agency determined its cost estimates for 
implementation of the rule?
    Answer. As in our past ultra-low sulfur diesel and gasoline benzene 
rules, the Agency performed a detailed refinery-by-refinery cost 
analysis of each refinery in the country. We established the baseline 
conditions for each refinery based on publicly available information as 
well as confidential information from our own databases and those of 
the Energy Information Administration. We then estimated what actions 
would be the least cost for each refinery to comply with the proposed 
Tier 3 standards, using the latest cost information provided by various 
technology vendors and engineering firms whose equipment is already 
being used by refineries to comply with the Tier 2 gasoline sulfur 
standards. Our cost analysis was independently peer reviewed by 
knowledgeable experts in the field, and the feedback from the peer 
review, along with EPA's response, can be found in the rulemaking 
docket on www.regulations.gov.
    Question. Why do they vary so widely from industry projections?
    Answer. There are four main reasons for the apparent differences 
between EPA's projections and the industry reported projections. First 
is that EPA's cost estimate is an average cost while the industry 
reports out only the costs for the highest cost refineries. Expressed 
on an apples to apples basis, EPA's average cost estimate of about 1 
cent per gallon should be compared to the average cost that can be 
calculated from the industry study of 2.1 cents per gallon. 
Alternatively, if focusing on the highest cost refineries, EPA's 
modeling projects the marginal compliance cost for the highest cost 
refineries to be between 4.5-6.5 cents per gallon while the industry 
has reported the marginal cost for the highest cost refineries of 6-9 
cents per gallon. Second, the industry did not analyze the program we 
have proposed, which provides considerable flexibility. The proposed 
averaging, banking, and trading program would allow those few high cost 
refiners to comply through averaging with or purchasing credits from 
other refineries, which would lower not only the average cost, but 
especially the marginal costs. Third, the industry study's capital cost 
assumptions for Tier 3 are high. The industry study used reported Tier 
2 compliance costs for five selected refineries and then doubled them, 
rather than estimating the capital costs needed to comply with the much 
smaller increment of sulfur control required for Tier 3. Simply 
correcting their capital costs to reflect Tier 3 rather than Tier 2 
reduces their average cost to 1.6 cents per gallon. Fourth, the assumed 
rate of return on investment is higher in the industry analysis than 
the rate of return in the EPA analysis. Simple adjustments to the 
industry study to reflect plausible capital costs and accepted rates of 
return on investment bring their average costs in line with those of 
EPA and actually support EPA's cost estimate of about a penny per 
gallon. The reasonableness of EPA's cost estimate is further bolstered 
by the feedback received from our independent peer reviewers, a 2011 
study conducted by Mathpro for the International Council for Clean 
Transportation and a 2012 study conducted by Navigant for the Emission 
Control Technology Association. Furthermore, Valero, one of the 
Nation's largest refiners, recently announced its expected Tier 3 
compliance costs, and they indicated that their compliance costs would 
be lower than those reported by industry.
    Question. Do you believe that there is a more transparent way that 
the agency could calculate its cost/benefit data that would lead to 
greater consensus on what the right projections are?
    Answer. The Agency has been very transparent in how we performed 
our cost estimate and is updating the cost/benefit analysis for the 
final rule. The Draft Regulatory Impact Analysis fully details the 
analysis performed and the assumptions made. The only thing we are 
unable to share publicly is our specific cost projections for each 
refinery, as doing so may directly or indirectly divulge confidential 
business information for specific refineries. We have followed this 
same approach in several past rulemakings, which has allowed 
stakeholders to fully assess the reasonableness of our cost estimates 
and comment on them, while still preserving confidentiality. The 
industry's recent study of Tier 3 costs followed a very similar 
approach.

                       GHG POWERPLANT RULEMAKINGS

    Question. Mr. Perciasepe, when the fiscal year 2014 budget was 
released, you were quoted as saying that you expected to complete the 
new source performance standard for future powerplants this year and 
that you expected that the rules for existing powerplants ``would be on 
the table for fiscal year 2014.''
    Can you tell us what actions or work you have performed thus far on 
the rule for existing powerplants, if any?
    Answer. EPA is not currently developing any existing source GHG 
regulations for powerplants. The office's current work is focused on 
reviewing the comments submitted in response to the proposed carbon 
pollution standard for new powerplants under section 111(b).
    Question. What is your best estimate with respect to the schedule 
and process that you will use for writing the rule for existing 
powerplants? For example, how long do you expect it to take to complete 
and when will the first draft be made public?
    Answer. EPA is not currently developing any existing source GHG 
regulations for powerplants. In the event that EPA does undertake 
action to address GHG emissions from existing powerplants, the agency 
would ensure, as it always seeks to do, ample opportunity for States, 
the public, and stakeholders to offer meaningful input on potential 
approaches.

                COMMERCIAL FISHING SECTOR NPDES PROBLEM

    Question. Beginning in 2010, EPA issued regulations requiring NPDES 
permits for commercial fishing vessels engaged in catcher processing 
activities in Federal waters off the coast of Alaska. The Effluent 
Limitation Guideline (ELG) standard applied by EPA is based on criteria 
for shore-based facilities, and compliance with this standard has been 
virtually impossible for vessels at sea to meet. At issue is the 
requirement that all seafood waste be ground to ``0.5 inch or smaller 
in any dimension.'' While offshore vessels are able to achieve the 0.5-
inch standard, they cannot achieve it for any dimension. That is, 
either the length or width or height exceeds 0.5 inches. This is a 
particular problem with respect to fish skin strands, where it is 
impossible to achieve this standard 100 percent of the time.
    The shore-based ELG standards were developed with the understanding 
that the shore plant effluents would be deposited in harbors where the 
lack of flushing might cause negative impacts to the near shore marine 
environment. Those standards were applied to the offshore sector 
without any rationale or testing to determine whether discharges from a 
mobile vessel at sea would cause negative impacts to the environment.
    Will EPA agree to work with the offshore catcher processor sector 
to produce a more workable standard, and if necessary, suspend the 
current 0.5 inch or smaller in any dimension grind standard?
    Answer. Yes, the EPA is prepared to work with the offshore catcher 
processor industry on this important issue. The agency has advised 
industry representatives of our willingness to work with them during 
meetings on this concern. As we have discussed, if offshore catcher 
processors would like to pursue a change in the Effluent Limitation 
Guideline (ELG), we urge them to engage in the Effluent Guidelines 
Planning process. EPA may not change an ELG requirement through a 
letter or a permit. Any change to the Permit or any subsequent permits 
requires a change to the national ELG.
    EPA expects to publish for public notice and comment the next 
iteration of its proposed ELG Plan in the Federal Register shortly, and 
EPA encourages offshore catcher processors to submit comments to that 
plan.
    More information on the Effluent Guidelines Planning Process can be 
found at: http://water.epa.gov/lawsregs/lawsguidance/cwa/304m/.

                           REGIONAL HAZE RULE

    Question. In February the Environmental Protection Agency (EPA) 
proposed a regional haze rule for the Navajo Generating Station (NGS) 
in northern Arizona. That proposal would require the plant owners, 
which includes the Bureau of Reclamation, to install Selective 
Catalytic Reduction (SCR) technology. There is some debate as to 
whether baghouses would also be required. Regardless, the minimum 
estimated cost is $540 million--with a potential price tag of $1.1 
billion. How does EPA's budget account for the increased Federal 
capital costs that would be imposed by SCR (and possibly baghouses)?
    Answer. EPA is not an owner of NGS; therefore, EPA's budget would 
not be a source of funding for new controls at NGS. As stated in our 
February proposal, EPA understands that past pollution control 
investments at this facility have made use of alternative financing 
methods and that a report from the National Renewable Energy Laboratory 
(NREL) indicated that mechanisms may exist to help avoid or mitigate 
the estimated level of impact on water rates resulting from the Federal 
portion of the cost of new pollution controls. The proposal sets limits 
consistent with levels achieved by SCR, but it does not in fact require 
SCR. EPA, DOI, and DOE have committed to work together on several 
short- and long-term goals, including innovative clean energy options 
for electricity generation and seeking funding to cover expenses for 
the Federal portion of pollution controls at NGS.
    Question. In February a landslide destroyed portions of highway 89 
in Arizona causing three car accidents and closing the highway 
indefinitely--this is the primary roadway used to travel between 
Flagstaff and Page. Geotechnical experts and engineers are reviewing 
the damage to determine the cause of the landslide and whether it is 
safe to reconstruct the roadway. The current detour adds approximately 
50 miles to the trip from Flagstaff to Page, diverting traffic through 
highly populated areas on the Navajo and Hopi reservations in and 
around Tuba City and Moenkopi. EPA's regional haze proposal would 
require daily truck deliveries of hazardous anhydrous ammonia from 
Flagstaff to NGS near Page. EPA initially ``determined that the 
increase in daily tanker truck traffic to transport anhydrous ammonia 
to and from NGS for SCR will not result in a significant health risk.'' 
Has EPA performed an analysis of the geologic event along highway 89 in 
northern Arizona and the health risks posed by approximately 728 tanker 
truck deliveries of hazardous anhydrous ammonia traveling through 
highly populated portions of the Navajo and Hopi reservations?
    Answer. EPA's analysis of air quality impacts associated with 
increased truck traffic was conducted prior to the landslide affecting 
portions of Highway 89 in Arizona and therefore did not examine 
potential impacts associated with a different route to Page. EPA notes, 
however, that deliveries of anhydrous ammonia would not occur until 
after SCR is installed and operational. The earliest that would be is 
2018 and EPA's proposal includes several alternatives with longer 
deadlines. Our proposal included a BART alternative that required 
installation and operation of SCR in 2021-2023. Although EPA 
anticipates that Highway 89 will be reopened by the time SCR is 
installed and operational, EPA will continue to monitor the status of 
the plans for this highway during our extended comment period, which 
closes on August 5, 2013.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                         STATE REVOLVING FUNDS

    Question. The administration's fiscal year 2014 budget includes a 
reduction of $328 million for the Clean Water and Drinking Water State 
Revolving Funds (SRFs). Communities in my State are coming under 
increasing pressure to upgrade their wastewater treatment facilities in 
order to comply with more stringent water regulations. This seems to me 
to be an unfunded Federal mandate. Do you have any advice for 
communities and municipalities that do not have the revenue base to 
finance the multi-million dollar upgrades needed to comply with these 
increasingly stringent water regulations?
    Answer. EPA has been working with States and municipalities to meet 
their CWA obligations in a flexible and environmentally responsible 
approach called integrated planning. The Integrated Planning approach 
allows municipalities to balance CWA requirements in a manner that 
addresses the most pressing health and environmental protection issues 
first. Our work with States and municipalities also can lead to more 
sustainable and comprehensive solutions, such as green infrastructure, 
that improves water quality as well as supports other quality of life 
attributes that enhance the vitality of communities.
    The budget requests a combined $1.9 billion for the SRFs, a level 
that will still allow the SRFs to finance approximately $6 billion in 
wastewater and drinking water infrastructure projects annually. The 
administration has strongly supported the SRFs, having received and/or 
requested a total of approximately $20 billion in funds for the SRFs 
since 2009. Since their inception, the SRFs have been provided over $55 
billion.

                          RURAL WATER SYSTEMS

    Question. Your agency has been providing communities with much 
needed training and technical assistance to comply with complex EPA 
regulations. It appears to me that the administration's budget does not 
explicitly include any funding to assist small rural water system 
operators to comply with EPA rules and regulations.
    Do these communities have the ability or resources to navigate 
toward compliance without your help? Other than set-asides from the 
revolving funds what assistance does your budget provide to communities 
to comply with your agency's complex regulations?
    Answer. Small and rural communities receive training and technical 
assistance directly from EPA and State agency staff, as well as from 
nonprofit organizations funded by EPA, State environmental and health 
departments, and the United States Department of Agriculture/Rural 
Utilities Service. EPA's Public Water System Supervision (PWSS) grant 
and Drinking Water State Revolving Fund (DWSRF) enable States to 
develop technical assistance plans for their water systems, especially 
rural water systems and small systems serving fewer than 10,000 people.
    PWSS grants help States, territories, and tribes develop and 
implement a PWSS program to ensure that all water systems comply with 
the National Primary Drinking Water Regulations. States use the grant 
funding to develop and maintain State drinking water regulations; 
develop and maintain an inventory of public water systems throughout 
the State; track compliance information on public water systems; 
conduct sanitary surveys of public water systems; review public water 
system plans and specifications; provide technical assistance to 
managers and operators of public water systems; carry out a program to 
ensure that the public water systems regularly inform their consumers 
about the quality of the water that they are providing; certify 
laboratories that can perform the analysis of drinking water that will 
be used to determine compliance with the regulations; and carry out an 
enforcement program to ensure that the public water systems comply with 
all of the State's requirements.
    Besides set-asides provided by the DWSRF program, the DWSRF itself 
makes funds available to drinking water systems, including small and 
rural systems, to finance infrastructure improvements. The program also 
emphasizes providing funds to small and disadvantaged communities and 
to programs that encourage pollution prevention as a tool for ensuring 
safe drinking water. In fact, under the DWSRF program, States are 
required to provide a minimum of 15 percent of the funds available for 
loan assistance to small systems to help address infrastructure needs.
    In addition, EPA provides direct technical support and training to 
States so they can assist small systems in building the capacity they 
need to comply with current and future drinking water rules, and has 
made strengthening the technical, managerial, and financial capacity of 
small systems an Agency priority goal. For example, EPA implements the 
Area-Wide Optimization Program (AWOP) which is often directed towards 
small systems. This program provides compliance assistance and teaches 
problem solving skills to improve operations at drinking water systems 
rather than focusing on costly capital improvements. The agency is 
developing a new online training system to provide basic training on 
all of the National Primary Drinking Water Regulations. EPA also 
provides training to States, tribes, and water systems through periodic 
webinars on various compliance issues. For example, there are webinars 
in fiscal year 2013 on the monitoring requirements for the Stage 2 
Disinfection/Disinfection Byproducts Rule and microbial inactivation. 
EPA's website contains resources for systems challenged with compliance 
with arsenic and radionuclides, and work is underway to develop a 
compliance assistance tool for small water systems facing nitrate 
noncompliance.
    To assist small systems to improve their managerial and financial 
capacity, the Agency has also developed CUPSS (Check-up for Small 
Systems), a free, easy-to-use, asset management tool for small drinking 
water and wastewater utilities. Small systems can use CUPSS to develop 
a record of assets, a schedule of required tasks, an understanding of 
finances; a tailored asset management plan. The agency also developed 
the Energy Use Assessment Tool for small drinking water and wastewater 
utilities to help them understand their current energy use and better 
enable them to identify opportunities for reducing energy costs.
    EPA's Safe Drinking Water Hotline also is available to help the 
public, drinking water suppliers, and State and local officials 
understand the regulations and programs developed in accordance with 
the Safe Drinking Water Act. This includes information about drinking 
water requirements, source water protection programs, underground 
injection control programs, guidance, and public education materials. 
The Hotline also provides contact information for resources such as 
State-certified labs and EPA regional offices.

                        DESOTO COUNTY ATTAINMENT

    Question. Was DeSoto County, Mississippi, in non-attainment status 
in 2004?
    Answer. No, DeSoto County was not in non-attainment status in 2004.
    Question. Did DeSoto County enter non-attainment based on 2008 
standards?
    Answer. For the 2008 Ozone NAAQS, EPA included the northern portion 
of DeSoto County, Mississippi, in the Memphis Nonattainment Area. 
Shelby County, Tennessee, and Crittendon County, Arkansas, make up the 
rest of the area. This is the first time DeSoto County has been 
designated as nonattainment for ozone. EPA determined that DeSoto 
County should be part of this nonattainment area based on an analysis 
of the technical factors, including information submitted by 
Mississippi, and concluded that emissions from the county contribute to 
the monitored violations in the area.
    Question. Did ozone concentrations in DeSoto County increase or 
decrease from 2004 through present?
    Answer. The ozone air quality monitor located in central DeSoto 
County indicates that ozone concentrations have decreased since 2004. 
The EPA evaluates air quality status in terms of a 3-year average. For 
DeSoto County, the 3-year average ozone levels decreased 11.2 percent 
from 0.084 ppm (2002-2004) to 0.074 ppm (2010-2012). (Note that in 
2008, the standard was revised from .085 ppm to .075 ppm).
    Question. What portion of the Memphis area non-attainment status is 
attributable to DeSoto County sources?
    Answer. It makes sense to include DeSoto County in the 
nonattainment area because analysis shows mobile source and area source 
emissions are significant contributors to ozone formation in the 
Memphis area. Population has grown steadily and the county has the 
second highest Vehicle Miles Traveled in the area. From 2000-2010, 
population in DeSoto County increased 48 percent. Much of this growth 
has been in the northern portion of the county that is adjacent to 
Tennessee.
    The county has the second highest Vehicle Miles Traveled in the 
Memphis area. More than 30 percent of the county's ozone-forming 
emissions of NO<INF>X</INF> and VOC are from mobile sources and over 40 
percent are from area sources. In addition, EPA's analysis of 
meteorology and the conceptual model for high ozone events in the 
Memphis area supports a conclusion that DeSoto County is contributing 
to high ozone levels in the Memphis area. In 2008, sources in DeSoto 
County emitted approximately 5,100 tpy NO<INF>X</INF> (9 percent of CSA 
total) and 5,200 tpy VOC (12 percent of CSA total).
    Question. Does non-attainment status limit certain types of 
activities in DeSoto County?
    Answer. The Memphis nonattainment area is classified as a Marginal 
Nonattainment Area for ozone which specifies an attainment deadline of 
2015. Marginal areas do not need to submit an attainment demonstration 
or a Reasonable Further Progress Plan. DeSoto County does need to 
participate in the Memphis metropolitan area's transportation 
conformity planning to ensure emissions associated with certain 
transportation-related projects are consistent with achieving clean air 
standards. Also, new or modified major stationary sources in the area 
are subject to the Clean Air Act's nonattainment area new source review 
preconstruction permitting requirements. Inclusion in this area also 
makes DeSoto County eligible for Congestion Mitigation and Air Quality 
(CMAQ) funds.
    Question. Is DeSoto County's non-attainment status consistent with 
Executive Order 13563, aimed at improving regulations and regulatory 
review, in which President Obama stated that ``Our regulatory system 
must protect health, welfare, safety, and our environment while 
promoting economic growth, innovation, competitiveness, and job 
creation.''?
    Answer. As indicated in the Federal Register notice announcing the 
final designations for the 2008 ozone standards, area designations 
actions are a mandatory duty under the Clean Air Act. The EPA shares 
the responsibility with the States and tribes for reducing ozone air 
pollution to protect public health. Working closely with the States and 
tribes, the EPA is implementing the 2008 ozone standards using a common 
sense approach that improves air quality, maximizes flexibilities, and 
minimizes burden on State and local governments. Current and upcoming 
Federal standards and safeguards, including pollution reduction rules 
for powerplants, industry, vehicles and fuels, will assure steady 
progress to reduce smog-forming pollution and will protect public 
health in communities across the country. EPA will assist States as 
much as possible with any additional measures so that they can return 
to attainment status as soon as possible.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven

                         REGIONAL HAZE PROGRAM

    Question. EPA's Regional Haze program is designed to protect 
visibility in national parks and wilderness areas. I am concerned that, 
in its implementation of the program, EPA is using outdated regulatory 
tools to assess projected visibility improvements and compliance costs 
when making Regional Haze decisions.
    The Air Pollution Cost Manual currently used by EPA in estimating 
costs for regional haze and other best available retrofit technology 
(BART) determinations was published in 2002. Costs for designing, 
engineering and installing controls obviously have increased 
significantly since then. Given that the current cost manual was 
published over a decade ago, is it out of date? What steps are being 
taken by EPA to update it? Doesn't the use of an outdated cost manual 
increase the likelihood that EPA is underestimating regional haze 
compliance costs?
    Answer. One important aspect of the Control Cost Manual (CCM) is 
that it sets forth one well recognized control cost methodology that 
provides consistency for all air agencies in preparing and reviewing 
cost estimates for BART and other programs, thereby providing a 
foundation for the comparison of cost estimates prepared by different 
sources in different locales. This methodology is still well recognized 
and valuable today and includes equations and data to generate cost 
estimates for engineering and installing control technology. Through a 
notice-and-comment rulemaking, the EPA has required that BART analyses 
for certain powerplants (based on size) follow this methodology.\1\ It 
should be noted that a major reason for EPA disapproval of cost 
estimates included in Regional Haze SIPs has been the failure to follow 
the methodology for cost estimation provided in the CCM for some of 
these powerplants by either including items that are not part of this 
methodology or not including all cost items. While EPA has no reason to 
believe that the methodology for cost estimation is out of date, the 
Agency will review the methodology provided in the CCM in light of the 
concerns outlined and update the methodology if necessary.
---------------------------------------------------------------------------
    \1\ 40 CFR 51.308(e)(1)(ii)(B) and section IV.D.4.a.5 of appendix Y 
of 40 CFR part 51 require that cost estimates used in BART analyses for 
powerplants having a generating capacity greater than 750 megawatts 
must be based on the OAQPS Control Cost Manual, where possible.
---------------------------------------------------------------------------
    The CCM also contains cost estimates for particular types of 
emission control systems, based on then-current information from actual 
installations of particular controls at particular sources. These 
historically based estimates may become outdated. However, the CCM 
itself specifically allows and encourages users of the Manual to 
develop and use alternative cost estimates based on more recent or more 
directly relevant installation experiences, provided such alternative 
estimates are well justified and documented. In fact, EPA has never 
disapproved a State BART determination based only on the State having 
used cost estimates based on such more recent or more directly relevant 
experiences.
    Question. EPA uses an air dispersion model, called CALPUFF Version 
5.8, to assess projected improvements in visibility from proposed 
NO<INF>X</INF> retrofit technologies. How does EPA respond to 
scholarly, peer-reviewed studies asserting that CALPUFF Version 5.8 
overestimates visibility improvements? What does EPA need to do to 
update CALPUFF Version 5.8? Is this underway? Why is EPA not allowing 
the use of more recent versions of CALPUFF, such as Version 6.4?
    Answer. EPA, States, and industry work collaboratively to ensure 
that dispersion models are continually improved and updated to ensure 
the most accurate predictions of visibility impacts. While the studies 
have been described as having been through peer review, they are 
largely papers included as part of general proceedings at conferences, 
as opposed to a formal peer review associated with submission to 
scientific journals. Therefore, we do not consider these references 
suitable for establishing the validity of a model or demonstrating that 
a model has undergone independent scientific peer review in accordance 
with Appendix W.\2\
---------------------------------------------------------------------------
    \2\ Section 3.2.2(e)(i) of EPA's Guideline on Air Quality Models 
(published as Appendix W of 40 CFR part 51).
---------------------------------------------------------------------------
    CALPUFF Version 5.8 is the most recent version of the model that 
meets the criteria in Appendix W. The newer version(s) of the CALPUFF 
dispersion model have not received the level of review required for use 
in a regulatory context. Based on EPA's review of the available 
evidence, the models have not been shown to be sufficiently documented, 
technically valid, and reliable for use in a BART decisionmaking 
process.
    In the BART guidelines, EPA acknowledged that the regulatory 
version of the CALPUFF model (Version 5.8) could lead to modeled over 
predictions. The over predictions could overestimate the visibility 
impairment that a source causes on the day when weather conditions make 
the source have its maximum impact on a Class I area.\3\ Therefore, in 
the final version of the BART guidelines, EPA recommended that the 
CALPUFF model be used to estimate the 98th percentile visibility 
impairment rather than the highest daily impact value as proposed. If 
updated versions of CALPUFF can be shown to meet the criteria of 
Appendix W, it would likely be appropriate for the EPA to recommend 
that States switch to use the highest daily impact given that the 
updated chemistry of the CALPUFF model would result in more accurate 
results on such days than does Version 5.8.\4\
---------------------------------------------------------------------------
    \3\ ``Most important, the simplified chemistry in the model tends 
to magnify the actual visibility effects of that source. Because of 
these features and the uncertainties associated with the model, we 
believe it is appropriate to use the 98th percentile--a more robust 
approach that does not give undue weight to the extreme tail of the 
distribution.'' 70 FR 39104, 39121.
    \4\ In past agreements in using the CAMx photochemical model, which 
has a robust chemistry module, EPA has recommended the use of the 1st 
High value when sources were being screened out of a full BART analysis 
based on the CAMx results. See Comment Letter from EPA Region 6 to TCEQ 
dated February 13, 2007 regarding TCEQ Final Report ``Screening 
Analysis of Potential BART-Eligible Sources in Texas,'' December 2006.
---------------------------------------------------------------------------
    In coordination with the Federal Land Managers, EPA has already 
updated the current regulatory version of CALPUFF (Version 5.8) to 
address known ``bugs'' and expects to release the updated version later 
this summer. At the AWMA Specialty Conference in March 2013 and Annual 
Regional/State/Local Modelers workshop in April 2013, EPA provided 
information on the process and plans for updating Appendix W to address 
chemistry for individual source impacts on ozone, secondary 
PM<INF>2.5</INF> and regional haze/visibility impairment. EPA and 
Federal Land Managers have formed an interagency workgroup to review 
all available models to determine their suitability for these analyses, 
including updated versions of the CALPUFF modeling system. EPA also 
interacts with industry and other stakeholders. The information 
provided to EPA by WEST Associates and the model developer indicates 
that the new science updates include changes to incorporate atmospheric 
chemistry. These changes would require a notice and comment rulemaking 
in order for CALPUFF to be approved for analysis of atmospheric 
chemistry under Appendix W. Therefore, EPA will be considering this 
updated version of CALPUFF along with other models and techniques in 
its current review and planned regulatory update to Appendix W.
                                 ______
                                 
              Questions Submitted by Senator Mike Johanns

                       CITIZEN-SUIT TRANSPARENCY

    Question. With respect to public transparency where a citizen's 
suit has been brought against the Agency alleging a failure to 
undertake a nondiscretionary duty and where a third party has been 
granted status as an intervenor:
    Does the Agency believe there is any legal bar to notifying the 
public (including intervenors) in a timely manner of the EPA's intent 
to enter into settlement negotiations with the plaintiff?
    Answer. EPA fully appreciates the importance of public involvement 
in its rulemaking and other decisions. Most of EPA's defensive 
environmental cases are under the Clean Air Act, which provides the 
public notice and the opportunity to comment on any consent order or 
settlement before it is final or filed with the court. EPA does not 
commit in settlement to any final, substantive outcome of a prospective 
rulemaking or other decisionmaking process. The rulemaking process 
offers ample opportunity for the public, including regulated entities, 
to provide meaningful comment on any proposed regulation.
    Question. Does the Agency believe there is any legal bar to 
including intervenors in any settlement negotiations?
    Answer. The conduct of litigation involving the United States, 
including settlement negotiation, is the primary responsibility of the 
Department of Justice. EPA notes that there are existing opportunities 
under the Federal civil rules of procedure for interested parties to 
intervene in litigation, and settlements requiring court approval of 
consent decrees provide opportunities for interested parties to present 
their views. The involvement of third parties in settlement 
negotiations may constrain the ability of the Federal Government to 
reach an appropriate settlement, however, and the Department of Justice 
needs to retain the discretion to determine when involvement of third 
parties serves the interests of the United States.

                            FOIA DISCLOSURE

    Question. In early February, your agency released personal 
information on 80,000 livestock operations across the United States. In 
Nebraska, personal information on over 3,500 operations was released.
    Did EPA conduct an independent evaluation of the data States 
submitted to EPA and redact any such personal information the Privacy 
Act, Freedom of Information Act, or EPA's own policies required it to 
before the Agency made its first release of the data?
    Answer. In recognition of the concerns raised by the animal 
agricultural industry, the EPA engaged in a review of its FOIA response 
to determine whether the information released is publicly available, 
and whether any revisions to the agency's determination to release the 
information is warranted under the privacy exemption (Exemption 6) of 
the FOIA.
    As a result of this review, we have determined that, of the 29 
States \5\ for which the EPA released information, all of the 
information from 19 of the States is either available to the public on 
the EPA's or States' websites, is subject to mandatory disclosure under 
State or Federal law, or does not contain data that implicated a 
privacy interest. The data from these 19 States is therefore not 
subject to withholding under the privacy protections of FOIA Exemption 
6. The EPA has determined that some personal information received from 
the 10 remaining States \6\ is subject to Exemption 6.
---------------------------------------------------------------------------
    \5\ The 29 States are: Alabama, Arkansas, Arizona, Colorado, 
Florida, Georgia, Iowa, Illinois, Indiana, Louisiana, Maryland, Maine, 
Michigan, Missouri, Montana, North Carolina, North Dakota, Nebraska, 
New Jersey, New York, Ohio, Oregon, Pennsylvania, South Dakota, 
Tennessee, Texas, Utah, Wisconsin, and Wyoming.
    \6\ The 10 remaining States are: Arizona, Colorado, Georgia, 
Indiana, Illinois, Michigan, Montana, Nebraska, Ohio, and Utah.
---------------------------------------------------------------------------
    The EPA has thoroughly evaluated every data element from each of 
these 10 States and concluded that personal information--i.e., personal 
names, phone numbers, email addresses, individual mailing addresses (as 
opposed to business addresses) and some notes related to personal 
matters--implicates a privacy interest that outweighs any public 
interest in disclosure.
    We amended our FOIA response to redact portions of the data 
provided by these 10 States. The redacted portions include telephone 
numbers, email addresses, and notations that relate to personal 
matters. They also include the names and addresses of individuals (as 
opposed to business facility names and locations, though facility names 
that include individuals' names have also been redacted). We believe 
that this amended FOIA response continues to serve its intended purpose 
to provide basic location and other information about animal feeding 
operations in order to serve the public interest of ensuring that the 
EPA effectively implements its programs to protect water quality, while 
addressing the privacy interests of the agricultural community.
    Question. I am told the original release contained no redactions 
based on FOIA Exemptions or the Privacy Act. Is this accurate?
    Answer. Our initial FOIA response was released in the same 
condition as it was received by EPA from the States.
    Question. EPA has now reportedly agreed that in the case of data 
from 10 States EPA should have redacted information. Is this an 
accurate rendering?
    Answer. After a comprehensive review, the EPA determined that some 
personal information received from 10 States is subject to FOIA 
exemption 6 and took action to redact that information.
    Question. Does EPA believe that the release of unredacted data in 
early February is consistent with applicable FOIA and Privacy Act law?
    Answer. It was EPA's understanding, based on our communication with 
States, that the information received, and subsequently released, was 
all publicly available, either through an online database or through a 
public records request to each State. EPA requested only publicly 
available information from States. EPA believes that its response to 
the FOIA requesters was consistent with its obligations under the 
Privacy Act.
    Question. With respect to the redactions that EPA now acknowledges 
should have occurred before any FOIA release occurred, has EPA asked 
for a list of entities and individuals who received (or viewed) the 
unredacted data?
    For those individuals and entities, has EPA asked for affidavits 
certifying that those individuals and entities have not kept copies or 
otherwise released or inappropriately recorded the data that was 
subsequently redacted?
    Answer. The EPA requested that all copies of the original response 
be returned from all the requesters. The EPA also requested that the 
requesters confirm that all copies of the information were destroyed. 
The FOIA requesters subsequently complied. The EPA will work together 
with our Federal partners, industry, and other stakeholders to ensure 
the agency continues to address the privacy interests of farmers.
    Question. Is it EPA's goal to establish and publish a national 
livestock database to be published on EPA's website?
    Answer. EPA has made no decision about establishing such a database 
and is coordinating with stakeholders and other Federal agencies to 
determine how data EPA has gathered about Concentrated Animal Feeding 
Operations (CAFOs) will be used.
    Question. Does the Agency believe that publishing a national 
livestock database will make our food supply less secure?
    Answer. As noted above, EPA has made no decision about establishing 
such a database. I can assure you that the agency's future actions to 
protect water quality will be done in coordination with industry, other 
Federal agencies, and other stakeholders to ensure the privacy 
interests of farmers and the integrity of our Nation's food supply.

              COOLING WATER INTAKE STRUCTURES--CWA 316(B)

    Question. With respect to EPA regulations addressing the systems 
and equipment that powerplants and manufacturing facilities use to pump 
water into a facility to manage heat:
    Is EPA considering an impingement proposal that will consider each 
site on an individual basis, taking into account fish-protection 
measures in place, and consider the costs and benefits of mandating 
additional measures intended to address impingement?
    Answer. The EPA proposed a regulation that would allow application 
of ``best professional judgement'' on how most effectively to address 
fish impingement for cooling water users who intake under 50 million 
gallons/day (MGD). A number of States expressed concern during the 
public comment period about the costs of implementing a site-specific 
approach to permitting. In a subsequent Notice of Data Availability, 
EPA also requested comment on adopting a site-specific approach to 
address impingement for all facilities. EPA received numerous comments 
on this issue. EPA is carefully considering these comments, in crafting 
the final rule consistent with the Clean Water Act.
    Question. With respect to the requirements addressing the selection 
of and installation of entrainment and impingement technology, is the 
Agency considering making congruent the deadlines applicable to 
entrainment and impingement requirements?
    Answer. Yes, EPA is considering including provisions in the final 
rule to align the deadlines for impingement and entrainment, so that 
facility compliance would be less costly and more efficient.
    Question. I have constituents who are very concerned with the sheer 
volume of information that may be required to be submitted within 6 
months of the final rule, (the (r)(2) through (r)(9) report submittals) 
which EPA has already collected through previous information requests. 
If this information has already been submitted, is the Agency 
considering writing the final rule such that facilities would be 
permitted to exclude previously submitted information from this list of 
requirements?
    Answer. Yes, the EPA is considering how its final rule can limit 
information burden on facilities. For example, the EPA is considering 
provisions in its final rule that would reduce or eliminate information 
collection requirements when the permitting authority does not need the 
additional information.
    Question. Will the Agency consider extending the deadline for 
submittal from 6 months to 1 year?
    Answer. Yes, the Agency is considering this and other suggestions 
the Agency has received that would help minimize reporting 
requirements.
    Question. The proposed rule, under (r)(9) Entrainment 
Characterization Study Plan, requires a peer review process that some 
consider undefined and unreasonable compared to any other rules EPA has 
promulgated. Is this requirement unlike a public comment period that 
would already be required by the facility's NPDES Permit, and if so, 
how?
    Answer. In devising the proposed rule, EPA was concerned about the 
burden associated with site-specific decisionmaking that States would 
bear. EPA was sensitive to the fact that States may lack staff with 
economics expertise necessary to review benefit/cost analyses as part 
of NPDES permitting. EPA viewed peer review as a close substitute for 
State burden. EPA received public comments on the peer review 
requirements consistent with this question. In the final rule, EPA 
expects to address the burden of peer review and is considering 
altering the requirements to reduce peer review burden.

                          SUBCOMMITTEE RECESS

    Senator Reed. And if there is no further business before 
the subcommittee, the hearing is concluded.
    [Whereupon, at 11:19 a.m., Wednesday, April 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
